<html>
<title> - HURRICANE KATRINA: WHY DID THE LEVEES FAIL?</title>
<body><pre>[Senate Hearing 109-526]
[From the U.S. Government Printing Office]


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
 
24-446 PDF

2006

                                                        S. Hrg. 109-526

                           HURRICANE KATRINA:
                        WHY DID THE LEVEES FAIL?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION



                               __________

                            NOVEMBER 2, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   Thomas R. Eldridge, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
          David M. Berick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Voinovich............................................    24
    Senator Akaka................................................    27
    Senator Warner...............................................    30
    Senator Carper...............................................    32
    Senator Coleman..............................................    36

                               WITNESSES
                      Wednesday, November 2, 2005

Ivor Ll. van Heerden, Ph.D., Head, State of Louisiana Forensic 
  Data Gathering Team, Director, Center for the Study of Public 
  Health Impacts of Hurricanes, and Deputy Director, Louisiana 
  State University Hurricane Center, Baton Rouge, Louisiana......     5
Paul F. Mlakar, Ph.D., P.E., Senior Research Scientist, U.S. Army 
  Research and Development Center, Vicksburg, Mississippi........     8
Raymond B. Seed, Ph.D., Professor of Civil and Environmental 
  Engineering, University of California at Berkeley, on behalf of 
  the National Science Foundation-Sponsored Levee Investigation 
  Team...........................................................    10
Peter Nicholson, Ph.D., P.E., Associate Professor of Civil and 
  Environmental Engineering and Graduate Program Chair, 
  University of Hawaii, on behalf of the American Society of 
  Civil Engineers................................................    14

                     Alphabetical List of Witnesses

Mlakar, Paul F.:
    Testimony....................................................     8
    Prepared statement...........................................    98
Nicholson, Peter:
    Testimony....................................................    14
    Prepared statement with attachments..........................   121
Seed, Raymond B.:
    Testimony....................................................    10
    Prepared statement with attachments..........................   102
van Heerden, Ivor Ll.:
    Testimony....................................................     5
    Prepared statement with attachments..........................    49

                                Appendix

Letter and e-mail from Raymond B. Seed...........................   208
Preliminary Report on the Performance of the New Orleans Levee 
  Systems in Hurricane Katrina on August 29, 2005................   224
Questions and Responses for the Record from:
    Mr. van Heerden..............................................   162
    Mr. Mlakar...................................................   166
    Mr. Seed.....................................................   170
    Mr. Nicholson................................................   206

 
                           HURRICANE KATRINA:


 
                        WHY DID THE LEVEES FAIL?

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2005

                                       U.S. Senate,
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Warner, 
Lieberman, Akaka, Carper, Dayton, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Today, 
the Committee continues its investigation into the preparation 
for and response to Hurricane Katrina. Our focus at our fifth 
hearing this morning will be on why the levee system in and 
around New Orleans failed.
    This flood-control system was not constructed as Katrina 
bore down on New Orleans. It is a project that dates back 40 
years and was first authorized by Congress in the Flood Control 
Act of 1965. It is a project that has consumed $458 million of 
the taxpayers' money. Yet the project still is not complete, 
and key elements failed when put to the test.
    While some of the floodwalls and levees were overtopped, 
something much more catastrophic happened that was not 
anticipated. Some levees and floodwalls failed outright, 
leaving gaping holes through which water rushed uncontrollably 
into the neighborhoods of New Orleans.
    The result was a city more than 80 percent underwater. 
Estimates by experts tell us that this was approximately twice 
the percentage that would have flooded solely from overtopping 
and that, even in those parts that were expected to flood, the 
levee breaks caused the floodwaters to be far deeper.
    This flooding caused enormous destruction and tragic loss 
of life. It made inoperable a land-based relief plan and 
aggravated the suffering and deprivation of the survivors. It 
caused far more devastation than would have occurred if the 
levees had held.
    Our four witnesses today are the leaders of forensic teams 
that are investigating why the levees and floodwalls failed. 
These teams are sponsored by the State of Louisiana, the 
National Science Foundation, the American Society of Civil 
Engineers, and the U.S. Army Corps of Engineers. The National 
Science Foundation and the American Society of Civil Engineers 
teams will be releasing a joint interim report detailing their 
initial findings at this hearing.\1\
---------------------------------------------------------------------------
    \1\ The report appears in the Appendix on page 224.
---------------------------------------------------------------------------
    The testimony we will receive today demonstrates that many 
of the widespread failures throughout the levee system were not 
solely the result of Mother Nature. Rather, they were the 
result, it appears, of human error in the form of design and 
construction flaws, as well as a confused and delayed response 
to the collapse.
    For example, at the 17th Street and London Avenue Canals, 
the evidence suggests that the design and construction of the 
floodwalls did not adequately account for layers of unstable 
soil beneath these walls that became, literally, ``slippery 
when wet.'' Built on a weak foundation, these floodwalls could 
not stand up to the force of the water brought by the storm.
    We will hear that the flooding east of the Industrial Canal 
in New Orleans East and in the lower Ninth Ward was caused in 
part by the storm surge from the hurricane that flowed over the 
top of the levees and floodwalls protecting those parts of the 
city. But we will also hear that this flooding was made worse 
by poor design and a lack of a uniform, comprehensive approach 
to levee construction.
    In addition, our witnesses will testify that some of the 
levees in St. Bernard Parish apparently were built with 
inferior material that washed away as Katrina hit, allowing the 
surge waters to flow more easily into that parish.
    We will also hear troubling concerns that the Army Corps' 
ongoing repair and reconstruction efforts have been 
insufficient. At least one of the team's leaders believes that 
these rebuilt levees may be at risk of failing in another 
storm, a disturbing finding that raises serious questions about 
the safety of the city's returning residents.
    This Committee's investigation of Hurricane Katrina has 
already exposed many flaws in what we thought was a coordinated 
homeland security system that has been built during the past 4 
years. Our hearing today will demonstrate that these flaws go 
beyond ineffective coordination and communication among the 
various levels of government to the very structures that are 
supposed to protect the residents of New Orleans.
    The people of New Orleans and the surrounding parishes put 
their faith in the levee system, and many of those people have 
lost everything. Unless the cause of this failure is 
investigated thoroughly and addressed, New Orleans will remain 
a city in jeopardy. Katrina was a powerful hurricane, but it 
will not be the last hurricane.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Madam Chairman. 
Thanks to the expert witnesses that are before us today.
    I do want to stress that these are expert witnesses. These 
aren't political people or elected officials. I must say, 
therefore, the collective weight of their expert testimony, as 
I have read it in preparation for this hearing, makes this, in 
my opinion, a very important hearing because the collective 
weight of the testimony and the findings that they will bring 
before us today, for me is as disheartening, as heartbreaking, 
as infuriating, and ultimately as embarrassing as the scenes of 
human suffering and degradation that we saw in the aftermath of 
Hurricane Katrina.
    This was a powerful hurricane. Our Committee's 
investigation began to determine why the Federal Government and 
the State and local governments failed to adequately prepare 
for and respond to the hurricane so that some of the human 
suffering that we saw on television from this distance would 
not have occurred.
    But today, your testimony tells us something different, 
which really is--it is just shocking, which is that, 
notwithstanding how strong Hurricane Katrina was, a lot of the 
flooding of New Orleans should never have happened if the 
levees had done what they were supposed to do. What we kept 
hearing leading up to the hurricane hitting landfall and, of 
course, afterward was that the levees had been built to 
withstand a Category 3 hurricane.
    The testimony we are going to hear this morning, as I have 
read it in preparation, tells me that Hurricane Katrina may 
have been as weak as Category 1 when it hit the canals along 
Lake Pontchartrain. But the bottom line point here that cries 
out from your testimony is that, in fact, it was human error in 
the design and construction of the storm surge barrier system 
that caused nearly all of the flooding of downtown New Orleans 
from the Lake Pontchartrain canals. And that a significant 
amount of the flooding of the Ninth Ward in New Orleans, the 
lower Ninth Ward and of so-called New Orleans East, occurred 
from the storm surge, but a lot of it occurred because of the 
failure of the levees on that part of town to do what they were 
supposed to do.
    This ultimately has to lead our Committee to ask some very 
tough questions of the Army Corps of Engineers since the Army 
Corps of Engineers, not singularly but significantly, as a 
Federal agency, was in charge over a long period of years of 
the construction of these levees. We will ask those questions.
    I must say that I am troubled also to hear from some of the 
witnesses in the testimony and in remarks to the staff that 
investigators from the three independent teams feel that they 
have not had the kind of cooperation that they should have had 
from the Army Corps of Engineers in providing access to 
important facts and evidence. I hope that lack of cooperation 
will end. We will have a witness before us in a couple of weeks 
from the Army Corps of Engineers administrative wing, and I 
hope before then that the frustration that the investigators 
are feeling with the lack of cooperation from the Corps will 
end.
    Also, as the Chairman has said, your expert investigations 
have now found that some of the work done to repair the levees, 
the reconstruction efforts after Katrina, was done, we all 
understand, in haste and in very urgent circumstances, was 
plagued by a lack of engineering oversight and perhaps by the 
use of substandard materials, and therefore, may not 
adequately, from what I read in your testimony, protect the 
City of New Orleans from high tides, let alone another 
hurricane.
    Gentlemen, I truly appreciate what you have done here and 
what you are going to tell us this morning. It is not pleasant 
to hear it, but it is important to hear it. Because as we said 
at the beginning, the only way we are going to make sure that, 
to the best of our ability, the suffering that occurred as a 
result of Hurricane Katrina in New Orleans and throughout the 
Gulf Coast region doesn't happen again is by pursuing the truth 
of what happened here and then fixing it.
    I thank each of you--forensic teams operated under the 
auspices of the State of Louisiana, the National Science 
Foundation, the American Society of Civil Engineers, and the 
U.S. Army Corps of Engineers. Respectively, from all that I 
know, you include many of the foremost experts in this country 
in the design and operation of levee systems and the impact of 
hurricanes and storm surge upon them. We are also very 
privileged to have the benefit of the joint preliminary report 
of the teams from the National Science Foundation and the 
American Society of Civil Engineers that is scheduled to be 
released this morning, and I want to extend a special thank you 
to Drs. Seed and Nicholson and their teams for their hard work 
in finishing that report in time for today's hearings.
    I thank all the witnesses for rearranging also what I know 
are very demanding schedules to be here this morning.
    As a Committee, we are going to ask some tough questions 
about why the levees failed and what needs to be done to repair 
and reconstruct them now to protect the people of New Orleans 
and to enable the reconstruction of that great American city. 
We ask that you answer those tough questions with the same 
frankness that you have shown in the testimony that you have 
prepared for this morning. Thank you very much.
    Chairman Collins. Thank you, Senator.
    I want to welcome, officially, our witnesses to this 
hearing. As Senator Lieberman indicated, we have assembled what 
is truly a world class panel of scientists to help us 
understand this issue.
    Dr. Ivor van Heerden is the Deputy Director of Louisiana 
State University's Hurricane Center and Director of the Center 
for the Study of Public Health Impacts of Hurricanes. He has an 
undergraduate degree in geology and both a Master's and a Ph.D. 
in marine sciences. He currently is the lead investigator 
selected by the State of Louisiana to review the levee failures 
in the New Orleans area.
    Dr. Paul Mlakar is a West Point graduate. He has both a 
Master's and a Ph.D. in engineering science. Dr. Mlakar has 
served as the Chief of the Concrete and Materials Division of 
what is now called the Army Engineer Research and Development 
Center. Dr. Mlakar led the Corps' performance study of the 
Pentagon after the September 11 attacks. He is the leader of 
the Army Corps of Engineers data gathering team investigating 
the levee failures.
    Dr. Raymond Seed is a professor of civil and environmental 
engineering at the University of California at Berkeley. He is 
an expert on the stability of dams, embankment soils, and 
buried structures. He holds an undergraduate degree in civil 
engineering and both a Master's and a Ph.D. in geotechnical 
engineering, which I have never even heard of before. Dr. Seed 
is leading the National Science Foundation's investigation of 
the levees.
    And finally, we will hear from Dr. Peter Nicholson, who is 
an associate professor of civil and environmental engineering 
and Chair of Graduate Programs at the University of Hawaii. He 
has undergraduate degrees in geology and geophysics and in 
civil engineering, and both a Master's and a Ph.D. in civil 
engineering, as well. Dr. Nicholson, who chairs the American 
Society of Civil Engineers Geo Institute Committee on 
Embankments, Dams, and Slopes, is leading the Society's 
investigation of the levee failures.
    I spent some time going through the credentials of our 
witnesses to demonstrate what an extraordinarily well-qualified 
panel we have this morning. I think it is unusual for us to 
have four scientists testifying before this Committee, and we 
very much appreciate your sharing your expertise with us this 
morning.
    I am going to ask that you all stand and raise your right 
hands so that I can swear you in.
    Do you swear that the testimony that you are about to give 
to this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. van Heerden. I do.
    Mr. Mlakar. I do.
    Mr. Seed. I do.
    Mr. Nicholson. I do.
    Chairman Collins. Thank you. Dr. van Heerden, we are going 
to begin with you.

  TESTIMONY OF IVOR LL. VAN HEERDEN, PH.D.,\1\ HEAD, STATE OF 
 LOUISIANA FORENSIC DATA GATHERING TEAM, DIRECTOR, CENTER FOR 
 THE STUDY OF PUBLIC HEALTH IMPACTS OF HURRICANES, AND DEPUTY 
 DIRECTOR, LOUISIANA STATE UNIVERSITY HURRICANE CENTER, BATON 
                        ROUGE, LOUISIANA

    Mr. van Heerden. Can I have the first slide, please? This 
is a product from a model that we used to determine the surge, 
and this gives you an idea of what the flooding would have been 
in New Orleans if there hadn't been a breach in the levee. It 
is a model we run on our supercomputer. This was actually the 
first warning that we put out 30-odd hours before landfall that 
New Orleans would flood. Next slide, please.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. van Heerden with attachments 
appears in the Appendix on page 49.
---------------------------------------------------------------------------
    Senator Lieberman. Could you describe that just a little 
more? In other words, how different would the flooding in New 
Orleans have been if the levees did not break?
    Mr. van Heerden. As a result of the breaches, a whole lot--
the flooding was double what you see on that slide.
    The next slide actually is a satellite image that will show 
you the extent of the flooding. That is all the blue. So if we 
hadn't had the breaches, this area wouldn't have flooded and 
large sections here and in here wouldn't have flooded. Next 
slide, please.
    This gives you an idea of the water depth, and you see the 
maximum water depth is about 15 feet. If this hadn't occurred, 
the water depth would have been maybe five to seven feet. I 
want to draw your attention to this area here and talk very 
briefly about the levee overtopping in this area, which was 
where Lake Pontchartrain actually flooded into part of New 
Orleans. Next slide, please.
    This is a slide of the actual levee, and you can see its 
northern embankment, and right on the top here is a wreck line. 
That is the water line from the surge. But you will see the 
wall here is actually a few feet, a couple of feet lower. Next 
slide, please.
    And this is what happens when you get overwash. You create 
a scour trench, and this was one of the areas that Orleans East 
flooded. Next slide, please.
    I want to start with the 17th Street Canal and then go to 
London Avenue Canal. Next slide, please.
    This is the basic design of the walls, the so-called I-
walls. There is sheetpiling driven in the ground and then a 
concrete wall on top, a soil embankment on either side. Very 
often, that soil comes from the dredging of the canal, so it is 
the material that was in the canal. Next slide, please.
    This is what we term a hydrograph. It gives you the height 
of the water with time, and I will draw your attention to the 
pink line. This is from the model. This is the water level that 
was experienced in the 17th Street Canal at its mouth. The 
arrow indicates when we believe the breach actually occurred, 
so it was after the peak of the surge. Next slide, please.
    An aerial view right after the flood, and the important 
thing is right here in the middle, you can see a green bank and 
the wall. That is the area that slid. Next slide.
    This is taken on the water on day two. You can see there is 
the wall. We tried to line ourselves down the wall. And there 
is the former bank, and that used to be over here. Here are the 
wall segments that moved 30-odd feet. Next slide.
    And then between them, there were sky areas and the walls 
also blew out, as well. Next slide, please.
    This is the actual soil that is left behind, the old 
embankment, and the thing that we saw was a lot of wood and 
organic matter in this bank, indicative that it was dredged out 
of the canal. Next slide, please.
    And, of course, as all of this moved, it acted as a 
bulldozer, and this yard used to be about four or five feet 
lower, and you can see how the hummocky terrain and the 
buildings and everything have moved. This is the bulldozing 
effect as that levee let go. Next slide, please.
    Underneath all of this is an old swamp, and you can see the 
cypress stumps that occur in this area about every 15 feet. So 
New Orleans was built on an old swamp, and it suggests that 
where the 17th Street Canal breach occurred, we were sitting on 
top of an old swamp deposit. Next slide, please.
    In addition, we tried to get the monoliths and the 
sheetpiling removed. We couldn't, but this was something that 
disturbed us. It looks like the sheetpiling actually didn't 
extend into this monolith. Unfortunately, this whole area has 
now been covered with the repair material, but it raises 
questions. Next slide, please.
    Right now, we are not sure exactly how the water got from 
the canal through onto the opposite side to soften the soils 
and lead to the actual sliding of the wall. There are three 
potential pathways, one in this highly organic old swamp 
material that was pumped up to form the bank, the actual peat 
and swamp layer, and also these clays down here have lots of 
parallel lenses in them. The important thing was that 
sheetpiling, from all the records we can find, only went to 
minus-ten feet below sea level Next slide, please.
    An aerial sketch, if you will, of what happened. This levee 
section moved, and then these walls on either side collapsed. 
Next slide, please.
    This is at London Avenue at Filmore. This is the Western 
breach, very similar sorts of features. I want to draw your 
attention to this little house and pine trees. Next slide, 
please.
    This is what it was like before Katrina. The house was down 
at the toe of the levee. You can see the pine tree. Next slide, 
please.
    And now it is way up, as a result of that heave, indicative 
again of the very similar failure at the 17th Street Canal of 
this section of the levee sliding outwards. Next slide, please.
    On the opposite side from that breach, the walls are 
broken, tilted, cracked. Next slide, please.
    There is evidence of what we call sand boils, where the 
water has come underneath the levee and blown up on the top, on 
the back side. Next slide, please.
    And, in fact, there are also heaves you can see, not a good 
slide, but these planter boxes have moved and there was this 
little swimming pool that moved, as well. So some of the same 
features we saw at the 17th Street Canal, not as dramatic. Next 
slide, please.
    And what we believe happened at Filmore was basically the 
same thing. The sheetpiling came down to 11-and-a-half feet 
below sea level and the water found its way through. What is 
interesting on the opposite side of the canal, where it didn't 
fail but it cracked the sheetpiling, we believe went down to 
minus 26 feet, seeming to suggest a deeper sheetpile would have 
helped. Next slide, please.
    The Mirabeau break on London Avenue, the thing that really 
strikes you when you get there is the sand. This is the top of 
a car, so you have four to five feet of sand. It looks like a 
river, the whole area. Next slide, please.
    And when you look at the actual break, the thing that 
struck us were the wall segments actually dipping down into 
what appeared to be a hole, and so perhaps a slightly different 
failure to the other areas. Next slide, please.
    And what we suspect is that this is a blowout hole that the 
soil, that the water made its way underneath and blew out, 
created a void, and these wall segments collapsed into that 
hole. Next slide, please.
    And again, the important thing at Mirabeau is you have this 
very thick layer of beach sand. It is very porous, very 
premeable, and it created, we believe, a conduit for the water 
to get from the canal under pressure and onto the other side, 
and the fact that you have all the sand amongst the houses, 
suggesting that this was the main failure mechanism. Next 
slide, please.
    The Industrial Canal failed just before the peak, right at 
the time the water started overtopping. Next slide, please.
    The breaches. Next slide, please.
    Next slide.
    Just to show you how it blew out, it removed all these 
houses, probably a 20-foot head of water. Next slide.
    And on the ground, you see a scour trench where the pilings 
used to be, the wall used to be. Next slide, please.
    And where it hasn't failed, there is this very typical 
scour trench all the way along, suggesting that it was just 
overwash that led to the failure of these sections of the 
levees. Next slide, please.
    There is the question of the barge. Next slide.
    What we found was evidence that the barge had gone through 
the wall. Next slide, please.
    But it was after the wall had collapsed, and that was given 
to us that the wall is at 45 degrees and the sheetpiling where 
the barge perhaps did knock the wall is horizontal, suggesting 
the wall was down before the barge came through. Next slide, 
please.
    What really struck us, though, was when you look down the 
length of the wall, it had these strange curves in it beyond 
where the actual breach is and then the signs of embankment 
failure in front of the walls. Next slide.
    And what you see here is a tilted wall and examples of 
where the soil has dropped down in both cases. And in this 
area, we saw something that we call percolation holes, where it 
appeared the water had actually started to scour down 
underneath the sheetpiling. Next slide, please.
    Again, swampy material. The bore hole data suggests that 
these are all soft or very soft clays. Next slide, please.
    And again, there appears to have been a number of potential 
mechanisms for the water to get under to lead to the failure as 
well as the overtopping, and right now, our investigation is 
looking at both, this being a failure related to the soil as 
well as the overtopping. Next slide, please.
    And being from Louisiana, I am obviously very concerned 
about what happens to the folk who trusted the system, and this 
is an example of how some of them actually got out. Thank you.
    Chairman Collins. Thank you. Dr. Mlakar.

 TESTIMONY OF PAUL F. MLAKAR, PH.D., P.E.,\1\ SENIOR RESEARCH 
     SCIENTIST, U.S. ARMY RESEARCH AND DEVELOPMENT CENTER, 
                     VICKSBURG, MISSISSIPPI

    Mr. Mlakar. Madam Chairman and Members of the Committee, I 
am Dr. Paul F. Mlakar, Senior Research Scientist at the U.S. 
Army Engineer Research and Development Center in Vicksburg, 
Mississippi, which is a component of the Corps of Engineers. I 
have spent most of my professional career of four decades in 
the Corps studying the response of structures to extreme 
loadings. This has included the performance of the Murrah 
Building in the Oklahoma City bombing and the Pentagon in the 
September 11 crash. I am a Fellow of the American Society of 
Civil Engineers and the recipient of their Forensic Engineering 
Award in 2003. I am also a Registered Professional Engineer, 
legally obligated to protect the health, safety, and welfare of 
our citizens.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mlakar appears in the Appendix on 
page 98.
---------------------------------------------------------------------------
    As some of you know, the ERDC conducts research and 
development to enable the Corps to better perform its military 
and civil works mission in support of the Nation. We employ 
2,500 people in seven laboratories located in four States. The 
staff is recognized nationally and internationally for its 
expertise in civil engineering and related disciplines. Our 
facilities include a number of unique devices that allow us to 
deliver technical solutions on the leading edge of science.
    I am pleased to appear today on behalf of the ERDC and the 
Corps to provide information as requested in your letter of 
October 27. The Congressional interest in the performance of 
the storm damage reduction infrastructure in Hurricane Katrina 
is much respected and shared by the Corps. While we do not yet 
have the complete answers to all of the questions, we welcome 
this opportunity to share our progress with you.
    The Corps takes its responsibility for the safety and well-
being of the Nation's citizens very seriously. In the case of 
the New Orleans area, we are determined to learn what failed, 
how it failed, why it failed, and to recommend ways to reduce 
the risk of failure in the future.
    So what have we done about these failures in Katrina? As 
the emergency operations wound down, the Corps asked me to lead 
in the collection of data for the study of the protection 
infrastructure affected. I deployed to New Orleans on the heels 
of Hurricane Rita and have spent most of the intervening period 
in the region. At various times, I have been joined by some 30 
Corps staff and other colleagues. Our priority has been on the 
breaches in the metropolitan area that caused the greatest 
devastation, that is the 17th Street Canal, the London Avenue 
Canal, and the Inner Harbor Navigation Canal.
    To document exactly what happened, we have been diligently 
recording the damages and measuring the post-Katrina 
conditions. To eventually explain how and why, we have examined 
physical evidence to establish the maximum water elevations at 
various locations. To establish the timeline of events, we have 
conducted detailed interviews so far with about 70 people who 
sat out the storm. To establish the soil properties, we have 
pushed a state-of-the-art instrumented cone to a depth of 80 
feet at some 60 locations. We further collected samples of the 
soil at depth in 10 locations for laboratory testing. We have 
also electronically scanned 63 out of 235 boxes of documents 
dealing with the design, construction, and maintenance of the 
projects involved.
    As we began, the American Society of Civil Engineers and a 
University of California team sponsored by the National Science 
Foundation approached the Corps about similar studies of 
infrastructure performance they were undertaking in hopes of 
applying lessons learned to the levee systems in California. In 
the spirit of openness and full transparency, we invited these 
teams to join us for inspections of the projects involved. We 
subsequently learned that the State of Louisiana would soon 
establish its own study team, and we invited the researchers 
from the Louisiana State University Hurricane Research Center 
to join us in advance of this official establishment. The Corps 
gratefully acknowledges the assistance provided by these teams 
in the collection of the data.
    So what is the way ahead? Over the next 8 months, an 
interagency performance evaluation task force commissioned by 
the Chief of Engineers will conclude the collection of the 
data, deliberately analyze this information, and rationally 
test various hypotheses about the behavior of the 
infrastructure. This work will comprehensively involve the 
following technical topics on 360 miles of diverse 
infrastructure. The topics are geodetic reference datum, storm 
surge and wave modeling, hydrodynamic forces, floodwall and 
levee performance, pumping station performance, interior 
drainage and flooding modeling, consequence analysis, and 
finally, risk and reliability assessment.
    The participants on this task force will be drawn broadly 
from Federal agencies, academia, State and local governments, 
professional societies, and international experts. We will 
communicate our progress periodically through news releases, 
press conferences, and web postings. The final results will 
include conclusions as to the causes of the failures and 
recommendations for the future design and construction of such 
infrastructure nationwide. These results will be independently 
reviewed by an external panel of the American Society of Civil 
Engineers. At the request of the Secretary of Defense, the 
National Academies will also independently assess the results 
and report to the Assistant Secretary of the Army for Civil 
Works.
    Our scheduled completion date is July 1. In the meantime, 
our progress will be shared with and used by our colleagues in 
the Corps responsible for the reconstruction of the protection 
in New Orleans.
    My written statement contains further information about 
your specific questions, and I request that it be entered into 
the record.
    Chairman Collins. Without objection.
    Mr. Mlakar. In closing, I advise against reaching 
conclusions to the very important questions before appropriate 
analysis is accomplished. Speculation concerning the 
understanding of why damage occurred in Katrina is not adequate 
to build back a reliable flood protection system. My testimony 
illustrates the Corps' continuing commitment to the pursuit and 
use of sound science and engineering principles in the 
execution of our civil works mission.
    On behalf of the Corps, thank you for allowing me the 
opportunity to present this testimony today.
    Chairman Collins. Thank you. Dr. Seed.

TESTIMONY OF RAYMOND B. SEED, PH.D.,\1\ PROFESSOR OF CIVIL AND 
    ENVIRONMENTAL ENGINEERING, UNIVERSITY OF CALIFORNIA AT 
    BERKELEY, ON BEHALF OF THE NATIONAL SCIENCE FOUNDATION-
               SPONSORED LEVEE INVESTIGATION TEAM

    Mr. Seed. Can I get my first Power Point image? In fact, 
you can skip to the second one.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Seed with attachments appears in 
the Appendix on page 102.
---------------------------------------------------------------------------
    Madam Chairman and Members of the Committee, good morning. 
My name is Raymond Seed, and I am pleased to be asked to appear 
before you today to testify on behalf of the levee 
investigation team sponsored by the U.S. National Science 
Foundation. A large number of leading national and 
international experts with a tremendous amount of forensic 
experience in sorting through major disasters have worked very 
hard this past month, and I am pleased to be able to present 
you with the first copy of the preliminary report of the 
findings of the combined ASCE and NSF-sponsored field 
investigation teams.\1\ I am very grateful for their tremendous 
efforts in getting this material ready for you today.
---------------------------------------------------------------------------
    \1\ The report appears in the Appendix on page 224.
---------------------------------------------------------------------------
    Our hearts go out to the many people who have lost 
everything, even in some cases their lives, in this 
catastrophic event. Our teams have had considerable previous 
experience in many other disasters, including numerous major 
earthquakes around the world, the recent Indian Ocean tsunami, 
floods and levee failures, the Space Shuttle Challenger 
disaster, and more. But we were not prepared for the level and 
scope of the devastation that we witnessed when we were in New 
Orleans. It must be the intent of our work that something like 
this will not be allowed to happen again. Next.
    With that in our minds and in our hearts, I must make it 
clear that we know a great deal about what happened, and in 
many cases, why, and that it is my intent today to speak as 
openly as possible. Our team, to a man and to a woman, feels 
that the people of the New Orleans region and the Nation and 
our government at all levels need and deserve nothing less. 
Important decisions are being made that will affect people's 
lives for years to come. We recognize the importance of 
providing the best possible informed information, responsibly 
studied and professionally and thoughtfully synthesized, that 
we can at this early juncture. Better and more complete 
information will continue to evolve over the coming year, but 
that will be too late for many ongoing decisions being made 
right now today.
    Our preliminary report presents a consensus document, and 
it presents the initial observations and findings that we were 
able to agree to release with all the team members and 
organizations involved. If you will ask, I will do my best to 
answer questions well beyond the scope of our initial 
preliminary report.
    Why did the levees and floodwalls fail? This is a map of 
the Central New Orleans region, prepared initially by the U.S. 
Army Corps of Engineers and then modified to reflect additional 
findings of our investigation teams. It shows the locations of 
many levee breaches that occurred with stars and dots and 
serves as a good base map for our discussions today. Not shown 
on this map are the additional flood protection levee systems 
that extend down the lower reaches of the Mississippi River, 
which begins here and runs about to the floor of the room, 
providing a narrow, additional protected corridor down to the 
Gulf.
    The storm surges produced by Hurricane Katrina resulted in 
numerous breaches and consequent flooding of approximately 75 
percent of the metropolitan areas of New Orleans. Most of the 
levee and floodwall failures were caused by overtopping as the 
storm surge rose over the tops of the levees and their 
floodwalls and produced the erosion that subsequently led to 
failures and breaches. Overtopping was most severe at the east 
end of the flood protection as the waters of Lake Borgne were 
driven west, producing a storm surge on the order of roughly 20 
feet in the area right here and massively overtopping the 
levees across this stretch. Next photo.
    This photograph and the one which follows it--next--show 
two sections of those levees, or at least two sections where 
those levees had previously existed. They are massively eroded. 
There is virtually nothing left of these levees along some 
parts of this stretch.
    A very severe storm surge also occurred farther to the 
South, along the lower reaches of the Mississippi River, and 
significant overtopping produced additional breaches in this 
region, as well. Next.
    That is the section off the bottom of the map. Next.
    These are some of the homes in that area. This photograph 
shows houses in the Plaquemines Parish corridor where the levee 
on the left, just off the photograph, breached and overtopped, 
and the storm surge carried the houses across and deposited 
them on the right-hand levee, which fronts the Mississippi 
River just to the right and has the main rip-rap and slope 
protection across the front face here. This was a catastrophic 
breach. Next slide.
    Overtopping was lesser in magnitude along the Inner Harbor 
Navigation Channel and along the Western portion of the MRGO 
Channel, which are the two main conduits through here and along 
here. But the consequences were no less severe. This 
overtopping again produced erosion and caused numerous 
additional levee failures. Next.
    This photograph shows the well-known breach at the West end 
of the Ninth Ward. I didn't show this earlier, but we spent 
some time figuring out the answer to the chicken and the egg 
question here, and it is our preliminary opinion that the 
infamous barge was a passive victim which was drawn into a 
breach that was already open at this location. Most of the 
failures in the Central New Orleans area were the result of 
overtopping, and one of the common failure modes was simply 
water cascading over the concrete floodwalls and then carving 
sharply etched trenches on the back sides of these walls. The 
next photo. The next photo.
    This is an example of that, one of many. There is a large 
breach just in the background here. This is just West of the 
Port of New Orleans. Many failures of this type. This reduced 
the lateral supports at the back sides of the walls and left 
them vulnerable to the high water forces on their outboard 
faces.
    Another repeated mode of failure and distress throughout 
the central region were problems at transition sections, where 
two different levee or wall systems joined together. The next 
slide. This is one of those sections. You can see here a 
structural wall which carries a gate structure over here for a 
road to pass through. It meets an earthen levee over here with 
a rail line crossing it, so there are three different 
intersections here. The intersection itself was a soft spot. 
Each of the individual sections was better designed, but they 
didn't join well. This was a common problem. There is a need to 
better coordinate these connections and their details.
    Farther to the West, in the East Bank Canal District, three 
levee failures occurred on the banks of the 17th Street and 
London Avenue Canals, and these failure levels occurred at 
water levels well below the tops of the floodwalls lining these 
canals. These three levee failures were likely caused by 
failures in the foundation soils under the levees, and the 
fourth distressed section on the London Avenue Canal shows 
signs of having neared the occurrence of a similar failure 
prior to the water levels having receded. Next.
    This photograph actually shows a breach on the 17th Street 
Canal being closed, and Dr. van Heerden showed earlier, this is 
the original inboard half of the embankment which just slid to 
the right, roughly 45 feet at the location of the piece of 
chain-link fence right here, a massive lateral translation as a 
result of foundation instability.
    The section across the canal on the East bank of the London 
Avenue Canal, North failure section, was very seriously 
distressed. Dr. van Heerden showed that one. In our view, it 
was at the point of incipient failure and was only saved by 
lowering of the water in the canal, possibly as a result of the 
other two breaches. That section is very seriously damaged and 
requires remediation before it can again safely hold high 
waters, and that will be another question which we will deal 
with later in this talk.
    The road forward. Major repair and rehabilitation efforts 
are underway to prepare the New Orleans flood protection system 
for future high water events. The next hurricane season will 
begin in June 2006. We have a hurry on our hands. Based on our 
observations, there are a number of things we would like to 
point out.
    Although it is somewhat customary to expect levee failures 
when overtopping occurs, they are not a requirement. There are 
things that can be done in terms of design details that would 
have provided better overtopping protection. Inboard face scour 
protections, splash slabs, rip-rap protection, even paving 
would have made a big difference at some of these sites and 
might have prevented some of the failures we observed.
    As the system is being repaired and rebuilt, it would be 
advantageous to better coordinate the crest heights of the 
various sections. Better coordination between individual units 
would be a good idea.
    Areas in which piping and internal erosion occurred are now 
weakened segments. There is a need to go back and assess the 
remaining segments that did not fail and be sure they still 
have their full integrity. Some of them will be found to have 
been damaged, in all likelihood.
    Levees are series systems, where the failure of one 
component, one single segment, means the failure of the whole 
system. The failure of several levees at less than their full 
designed water height in this hurricane warrants a thorough 
review of the overall system.
    In the short term, as repairs continue, we would like to 
see the sheetpiles, which are currently being operated as 
floodgates at the north end of the canals, continue to operate 
in that fashion. The Corps of Engineers does have good plans 
for moving forward on the five main downtown breach repairs, 
and we think they should operate those canals in that fashion 
until those can be implemented.
    The Corps, like other public agencies, routinely hires 
outside boards of consultants for critical dam projects where 
public safety is at interest. We are not aware of any major 
dams in the United States which basically protect larger, more 
vulnerable populations than the New Orleans levee system, and 
we hope the Corps will be encouraged to empanel such a body to 
oversee their work in New Orleans.
    The U.S. Army Corps of Engineers are stretched very thin 
right now, trying to respond and effect emergency and interim 
repairs in the wake of this catastrophe. It must be the job of 
the Federal Government and oversight committees such as yours 
to ensure they have the adequate resources and technical 
capabilities on hand to get the job done safely and well. The 
Corps has responsibility for many potentially high-hazard dams 
and levee systems, and we must all be able to have high 
confidence in their ability to perform these tasks.
    The ASCE and NSF teams have been drawn in inadvertently 
into some of the ongoing levee repair work, and we feel that 
right now, the Corps of Engineers is stretched very thin in the 
New Orleans region.
    This concludes my testimony. Thank you.
    Chairman Collins. Thank you, Doctor. Dr. Nicholson.

    TESTIMONY OF PETER NICHOLSON, PH.D., P.E.,\1\ ASSOCIATE 
 PROFESSOR OF CIVIL AND ENVIRONMENTAL ENGINEERING AND GRADUATE 
PROGRAM CHAIR, UNIVERSITY OF HAWAII, ON BEHALF OF THE AMERICAN 
                   SOCIETY OF CIVIL ENGINEERS

    Mr. Nicholson. Thank you, Madam Chairman, Members of the 
Committee. Good morning. My name is Peter Nicholson, and I am 
pleased to appear before you today to testify on behalf of the 
American Society of Civil Engineers as you examine the effects 
of Hurricane Katrina on the infrastructure of Coastal 
Louisiana, particularly on the levee system that protects the 
City of New Orleans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nicholson appears in the Appendix 
on page 121.
---------------------------------------------------------------------------
    I was asked by ASCE to assemble an independent team of 
experts to travel to New Orleans to collect data and make 
observations to be used to assess the performance of the flood 
control levees.
    One of the goals of the assessment team was to gather data 
and attempt to determine why certain sections of the levee 
system failed and why others did not. These determinations may 
help to answer the question of whether the failures were caused 
by localized conditions and/or whether surviving sections of 
the system may only be marginally better prepared to withstand 
the type of loads that were generated by this event. Could I 
have the next slide, please.
    The team that we assembled consisted of professional 
engineers from ASCE with a wide range of geotechnical 
engineering expertise in the study, safety, and inspection of 
dams and levees. While in New Orleans and the surrounding 
areas, we examined levee failures as well as distressed and 
intact portions of the levee system between September 29 and 
October 15.
    Our levee assessment team was joined by another ASCE team 
of coastal engineers and another team primarily from the 
University of California, Berkeley, under the auspices of the 
National Science Foundation. Our three teams were joined in the 
field by the U.S. Army Corps of Engineers Engineering Research 
and Development Center Team, led by Dr. Paul Mlakar, and we 
would like to thank Dr. Mlakar and the ERDC team for their 
logistical support.
    What we found in the field was very different than what we 
had expected, given what we had seen in the early media 
reports. Rather than a few breaches through the floodwalls in 
the city caused largely by overtopping, we found literally 
dozens of breaches throughout the many miles of the levee 
system. As geotechnical engineers, we were particularly 
interested to find that many of the levee problems involved 
significant soil-related issues. Next slide, please.
    We have seen many of these same slides. Dr. van Heerden and 
Dr. Seed have stolen a little of my thunder. Playing clean-up 
here is going to be a little tough. We have seen this slide 
before, the 17th Street Canal breach, and we observed, as said, 
intact soil blocks that had experienced large translation and 
heave. Next slide.
    We have seen slides like this. Here is the translated 
section we have seen before. It used to be over here. Next 
slide.
    And here again, just a slightly different view looking the 
other way than the former slides, where the levee had been 
here, and here is that elevated section or block with the 
chain-link fence. This movement would be consistent with the 
failure of the soil embankment or the foundation soils beneath. 
While we cannot yet determine conclusively the exact cause of 
the breach itself, the type of soil failure may well have been 
a significant contributing factor. Next slide.
    We have also seen London Avenue Canal breach, another view 
of the clubhouse, here from a different view, here taken from 
the top of the temporary repair that used to be down in the 
backyard of the house below. Next slide, please.
    Again, in that same area, we saw a tremendous amount of 
sand deposited, and we believe this material to be either from 
the foundation material beneath the embankment as well as 
material that may have been scoured from the canal. Next slide.
    Again, we were very interested in the non-failed section 
across the canal where we observed this floodwall and 
underlying embankment in severe distress. You can see it is out 
of alignment. Next slide, please.
    It was observed that we saw tilting on the inside of the 
wall, cracking, as we had seen before. This wall was badly out 
of alignment. And as a result of the tilt, there were gaps 
between the wall and the supporting soil on the canal side. We 
also observed that there was evidence of soil movement, 
seepage, and piping as indicated by a number of close 
examinations. Next slide.
    Sinkholes behind the wall near the crest of the embankment. 
Next slide.
    As well as we have seen the examination of sand boils and 
heave. We have seen slides like this before. Next slide.
    Further to the South, we had the second breach of the 
London Avenue Canal. Here, as they were trying to close the 
repair, dropping sandbags into the open hole. Next slide.
    And again, we have seen the buried car with huge volumes of 
sand deposited, much more than could have come from the 
embankment, and we believe these were scoured from the canal 
itself. By the time we got there, there was very little 
evidence left to examine the mechanisms at this site.
    It is very important that the impact of the levee breaches 
outside of the City of New Orleans not be overlooked, and many 
of the sections of the system were severely tested by 
overtopping, as we have heard earlier. Many portions of the 
levees were breached or severely distressed, causing 
significant heavy flooding, in many cases complete destruction 
of the thousands of neighborhood homes.
    The hurricane produced a storm surge that varied 
considerably depending on location, including the combined 
effects of orientation, geography, topography with respect to 
the forces of the passing storm. Hydraulic modeling of the 
surge, courtesy of LSU and Dr. van Heerden's group, and I have 
a few of his slides, as well. Next slide, please.
    We have seen this before, the hydrograph showing 
essentially two different levels of storm surge, as we have 
heard, in the Industrial Canal and much less in the city, 
significantly different levels of the storm surge as the storm 
passed. Next slide.
    As the storm passed to the East of New Orleans, the 
counterclockwise swirl, essentially, of the storm generated a 
large surge from the Gulf of Mexico and Lake Borgne that 
impacted the Eastern-facing coastal areas of the New Orleans 
area and the lower Mississippi delta. Next slide.
    The surge was, as we have seen this, as well, courtesy of 
the Hurricane Center, concentrated into this funnel area here 
up through the MRGO Channel into the Industrial Canal or the 
Inner Harbor Navigational Canal, and much less so to the north 
in Lake Pontchartrain.
    As shown by these models and the field evidence, this 
surge, which impacted the lakefront and the three canals within 
the central part of the city, was noticeably less severe. Field 
data indicated that the surge levels from the lake did not 
reach the elevation of lakefront levees and was well below the 
top of the height of the floodwalls bordering the interior 
canals, where three notable breaches occurred.
    Where the storm surge was most severe, causing massive 
overtopping, the levees experienced a range of damage from 
complete obliteration to intact with no signs of distress. Much 
of the difference in the degree of damage can be attributed to 
the types of levees and materials that were used in their 
construction. The most heavily damaged and/or destroyed earthen 
levees that we inspected were constructed of sand or shell 
fill, which was easily eroded. Next slide.
    And we have seen this slide, as well, before. This was the 
area along the MRGO that took the brunt of the storm as it came 
in, or the brunt of the surge through Lake Borgne from the East 
and just took out this section of the wall. Next slide.
    This is another aerial view showing where the flooding 
occurred, color coded here with the deepest flooding in dark 
blue, getting lighter to the yellow. So we can see the massive 
storm surge coming in from the East, or from the right in your 
picture, coming over that destroyed levee and also overtopping 
walls and breaching both on either side of MRGO as well as from 
the canals within the city.
    Senator Lieberman. Can you do us a favor and define MRGO? 
It is the Mississippi River----
    Mr. Nicholson. Mississippi River Gulf Outlet, MRGO.
    Senator Lieberman. Right.
    Mr. Nicholson. Next slide, please.
    This is just a lot of the embankments that were obviously 
overtopped. This is a photograph that we got from personnel at 
the energy plant, which watched through the storm. There is 
actually an earth embankment under here being overtopped by the 
flood wave. Next slide.
    This is another example of one of the earthen levees that 
had essentially been gutted by the overtopping flow. Next 
slide.
    We have seen this same slide when Professor Seed shared a 
lot of the slides. Essentially, nothing left of that embankment 
levee. Next slide.
    This is an example of some of the embankments which were 
overtopped but survived quite well. In this area, we had a 
significant area of marshland in front, essentially helping 
knock down or keep the storm surge or the waves to a lesser 
extent.
    Senator Lieberman. Where was that one?
    Mr. Nicholson. This is in the first line of defense on the 
Eastern edge of New Orleans East. Next slide.
    Moving back into the Industrial Canal, we have seen some of 
these slides, as well. Next slide.
    We have seen this slide twice, I think, already. We can go 
to the next one.
    We have seen the type of damage. This is just inside of 
that breach in the lower Ninth Ward. Next slide.
    And we have also seen a similar slide like this showing the 
scour on the backside of those walls that are overtopped as 
well as the misalignment of those I-walls or floodwalls just to 
the North of the lower Ninth Ward breach. Next slide.
    Again, the scour behind the overtopping. The soil line used 
to be up here. This soil has all been removed, essentially 
destabilizing behind the wall. Next slide.
    This is on the North side of the MRGO, overtopping, 
severely scoured out behind and caused breaches and failure of 
those walls. Next slide.
    We also saw a lot of problems with transitions. We can see 
two different problems here, different materials, and different 
heights. Oftentimes, there was a weak connection between the 
two, but in addition, the lower heights would direct the water 
to flood over sometimes the weaker material first. Next slide.
    If this was earth versus concrete, obviously the earth 
loses. Next slide.
    This is what happens if that is allowed to go further. The 
earth line was up here. This was earth embankment, which has 
now been severely scoured away and breached through, 
essentially. Next slide.
    More concrete to sheetpile, again, with the difference in 
height, directed the flow over this area first, and sheetpile 
being weaker than concrete, sheetpile loses. Next slide.
    We also saw this type of very complex transition where we 
had all the different problems, different material types, 
concrete to pavement on soil to ballast under railroad tracks 
to earth embankment. We had breaches on this side and this 
side. This raises another question of where we have the types 
of transitions between parts of the levee system that were 
maintained, designed, and constructed by different authorities 
or different agency groups. Here we had an earthen levee 
constructed by one group, the railroad taking care of their own 
business, different heights, so we have a complete mix of 
things happening there. I am finished.
    Well, I think we can answer the rest as we end. Madam 
Chairman, this concludes my testimony, and we will be pleased 
to take questions. Thank you.
    Chairman Collins. Thank you. Your testimony was very 
helpful.
    Dr. Seed, I want to begin my questioning with you today. At 
least twice, you wrote to the Army Corps of Engineers, on 
October 11 and October 18, to raise very serious concerns about 
the adequacy and the integrity of the repairs that the Army 
Corps and its contractors were making to the levees and the 
floodwalls, and I want to read for the record--we will put the 
entire letter of October 11--and the e-mail of October 18--into 
the record, but I want to read some excerpts.\1\
---------------------------------------------------------------------------
    \1\ The letter and e-mail appear in the Appendix on page 208.
---------------------------------------------------------------------------
    On October 11, you wrote that the situation at the 17th 
Street Canal ``warranted an urgent response'' because the 
repair was ``actively eroding.'' In this same letter, you wrote 
that the ``current embankment section was poorly configured 
with regard to the ongoing risk of failure.'' You wrote that 
certain repairs were leaking. In the case of the 17th Street 
Canal repairs, you wrote that ``rapid erosion and blowout would 
become likely.'' At the Southern London Avenue break, you said 
that it was leaking into the city more than at the other two 
breaks and you called it a ``potential hazard.'' You urged 
``urgent and resolute further action.''
    You also flagged the fact in your subsequent e-mail that 
contractors working on some of the levee repairs were not doing 
it properly and that there was inadequate oversight from the 
Army Corps. In that same e-mail, you said to the Army Corps, 
you warned of a ``significant flow'' of water and that there 
was no possibility of controlling storm surge rises at sections 
of the Industrial Canal levee so that further action may be 
urgently warranted.
    These raise very serious questions in my mind about the 
integrity of the repairs that have been undertaken and whether 
the returning residents of New Orleans are still at risk. What 
is your assessment today of the sufficiency of the repairs, and 
do you think there is a serious public safety issue still in 
New Orleans?
    Mr. Seed. Those are two separate questions.
    Chairman Collins. Yes, and I shouldn't have combined them.
    Mr. Seed. That is all right. I am a professor. We do that 
for a living.
    The first question is the most complex. We haven't been on 
the ground in New Orleans now for several weeks and more, and 
so we are not entirely clear what the details of those current 
configurations are.
    In response to the first letter, which you discussed, the 
Corps did respond quickly and very well, and those sections 
were rapidly improved. Behind that, though, was a week of back-
and-forth interaction between our team and the Corps in which 
the responses, in our view, were insufficient and sometimes 
misdirected, and it became clear to us that they were 
struggling to get the right kind of people put in charge of the 
projects to get our concerns addressed. My understanding from 
their last response is they do, in fact, have the right kind of 
people now directing these projects, and so we have a better 
feeling about them.
    The second letter addresses the two breaches on the 
Industrial Canal at the West end of the Ninth Ward, which when 
we left the sites had been further remediated, but which, in 
our view, were not adequate for a high-water incident, for 
instance, another hurricane storm surge as the storm season 
isn't yet behind us, or even a very high tide. A week ago 
Monday, October 24, they developed a large seep at one of those 
two sections, the northern of the two, and that, in our view, 
was not entirely unexpected.
    The Corps does now have five contracts let and, I believe, 
signed, and they have five outsourced engineering firms doing 
the final design work on more permanent closure sections. These 
will all involve sheetpile curtains, which will be far deeper 
than the original sheetpiles that were installed in these 
sites, and the configurations will be far more stable than they 
were before. So there do seem to be suitable patches on their 
way to being in place at these five locations. So with regard 
to these five particular sites, I don't believe there is a 
long-term significant risk to the City of New Orleans.
    The other half of the question, though, is what is the 
state of the overall safety of the City of New Orleans, and the 
answer there is the section that crossed along the North breach 
has not yet been addressed nor remediated. It is clearly a very 
weakened situation, and it was probably at the point of 
incipient failure in this last event. It certainly hasn't had 
its situation improved by the suffering it went through. It 
has, in fact, deteriorated. And there are many sections around 
the system that need to be investigated more thoroughly.
    There are also ongoing repairs of literally, as Dr. 
Nicholson said, dozens of breaches, and the section up along 
what we like to call as locals the MRGO section is vastly 
eroded. That is a very difficult construction project, simply 
in terms of time, if the race is to get things put back 
together for the next storm season in June. So there is a 
tremendous logistical difficulty and the Corps of Engineers is 
working very hard at all this. They are also stretched very 
thin. It is a challenge for anybody. It is a very difficult 
challenge.
    Chairman Collins. Dr. Nicholson, what is your assessment of 
the current state of repairs and the adequacy as far as people 
coming back into New Orleans to live and work?
    Mr. Nicholson. Well, as Dr. Seed had mentioned, the repairs 
of the damaged sections, of the breached sections in town seem 
to be coming along quite well and seem to be adequate, with 
perhaps the exception of the Industrial Canal area, which we 
hope they are going to be taking care of fairly soon.
    As far as the safety of the entire New Orleans area, as 
engineers, we look at safety or risk on a scale or as a factor 
of safety. So there are different levels of safety. There are 
always going to be some risks, particularly in a large storm.
    For the short term, my opinion is that short term, without 
a storm, they are probably adequately safe. Certainly with a 
large storm, as we are not yet out of hurricane season, as Dr. 
Seed had just mentioned, and certainly for the next hurricane 
season, there are significant risks and safety. With 
evacuation, proper evacuation, certainly the property is at 
risk and there is a large degree of safety to the property, but 
I believe as far as the safety of returning there with the 
potential to evacuate, I see that there is adequate safety.
    Chairman Collins. Dr. van Heerden, Senator Lieberman 
mentioned in his opening statement that we have heard time and 
again that the levees were constructed to withstand what I 
understand is called a standard project hurricane, and that is 
usually stated to be a Category 3 hurricane. We have also 
heard, well, the reason the levees failed is Katrina was a 
Category 4 hurricane that simply overwhelmed the design of the 
levees. But it is my understanding that your analysis suggests 
that the hurricane was not that strong. Could you elaborate on 
that and tell us what your assessment showed?
    Mr. van Heerden. Certainly. If you look at New Orleans, 
there was basically two different surges. The surge on the 
right side of the eye was the sort of surge you would expect 
with a Category 3 storm, and that was where we saw the 18 to 20 
feet of water in the funnel. But on the left-hand side, or the 
West side of the eye, the winds were much lower, more of the 
order of a Category 1 storm. The surges were not Category 3 
surges. If Katrina had gone to the West of New Orleans, we 
would have seen about 15 feet of water in Lake Pontchartrain 
and obviously flooded a much greater area.
    So as far as we could see, based on the model, and we have 
also spent many hours going out and measuring the heights of 
water lines, the surge in Lake Pontchartrain wasn't that of a 
Category 3 storm, and nor did it exceed the design criteria of 
the standard project hurricane.
    We have tried to understand what the standard project 
hurricane is, and if one uses the frequency that is in the 
Corps of Engineers definition, that is one is to 200 years, 
then you are talking about a Category 5 storm. If you use the 
central pressure of 27.6 inches, then you are talking about the 
potential of a Category 4 storm.
    In terms of the definition of the winds, we found two 
different definitions, and it is very difficult to work from 
those definitions to come up with the Saffir-Simpson. However, 
in the 1965 document, they talk about trying to design to the 
1915 hurricane. The 1915 hurricane was a Category 4 hurricane. 
In 1969 documents, they talk about designing to Hurricane 
Betsy, again, which was a Category 4 storm.
    So there is some confusion, exactly what is the standard 
project hurricane, but in our opinion, the design criteria on 
the 17th Street and London Avenue Canals were not exceeded.
    Chairman Collins. So to summarize before I move on to 
Senator Lieberman, is it fair to say that the levees should 
have survived Hurricane Katrina, given that Hurricane Katrina 
by the time it struck New Orleans was at a lesser category than 
the standard project hurricane?
    Mr. van Heerden. Madam Chairman, yes, it is fair to say 
that they should have stood the surge.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Dr. van Heerden, let me pick up from Senator Collins' line 
of questioning. I understand you to be saying that, because as 
we all remember, Hurricane Katrina went more to the East of New 
Orleans than it was originally thought. That on the Eastern 
part of New Orleans, there was a significant surge and perhaps 
the hurricane was at a Category 3 or higher at that point. But 
the point that strikes me as very significant here is that 
insofar as Lake Pontchartrain is concerned, it, in your 
opinion, was significantly less than what we are calling a 
Category 3 hurricane, is that correct?
    Mr. van Heerden. Yes, sir, that is correct.
    Senator Lieberman. And if I understand this correctly, most 
of the flooding of downtown New Orleans came from Lake 
Pontchartrain. Obviously, there was other significant flooding 
to the East in the New Orleans East, lower Ninth Ward, but when 
it came to downtown New Orleans, the 17th Street Canal, the 
Industrial Canal, and I believe it is the London Street Canal, 
those fed the flooding of downtown New Orleans, is that right?
    Mr. van Heerden. Downtown was principally the 17th Street 
Canal and the London Avenue Canal----
    Senator Lieberman. London Avenue----
    Mr. van Heerden [continuing]. As well as some breaches on 
the Industrial Canal. When you get to Orleans East, the 
flooding occurred not only from the Industrial Canal, but also 
from the breaches that the others have spoken about along the 
Gulf Intercoastal Waterway.
    Senator Lieberman. Correct. Let me come back and focus on 
Lake Pontchartrain because now you have told us that by your 
estimate, expert estimate, Hurricane Katrina was well below 
Category 3 as it hit Lake Pontchartrain. So do I correctly 
conclude that your determination is that the water of Lake 
Pontchartrain did not overtop the levees along the canal? In 
other words, the water did not reach a level to overtop those 
levees along Lake Pontchartrain?
    Mr. van Heerden. In the 17th Street Canal and the London 
Avenue Canal, the waters did not get high enough to overtop 
those levees from----
    Senator Lieberman. Right.
    Mr. van Heerden. I went up in a boat on the 17th Street 
Canal, and what we saw were water lines that indicated that the 
maximum water level was about three feet below the top of the 
wall.
    Senator Lieberman. So the fact that the water came surging 
through those levees and those canals from Lake Pontchartrain 
was the result of a failure of the levees, not that the water 
went over them?
    Mr. van Heerden. That is correct, sir.
    Senator Lieberman. Dr. Seed and Dr. Nicholson, do you and 
your investigation agree with those conclusions? Here, I am 
focusing on Lake Pontchartrain, that the water--the flooding 
didn't occur from the water overtopping the levees, but that 
the levees simply failed. Is that your conclusion, Dr. Seed.
    Mr. Seed. Our preliminary conclusion on all three of those 
sections is that the failure was produced somewhere in the 
foundation or the lower levels of the embankments themselves, 
but certainly the earthen embankments became unstable and the 
floodwalls were no longer supported.
    Senator Lieberman. And Dr. Nicholson.
    Mr. Nicholson. I concur with the other two.
    Senator Lieberman. And this led to my conclusion from your 
testimony that I stated at the outset, that it was human error 
in the design and construction of the levees that led to a 
significant part of the flooding of New Orleans, that, in fact, 
if the levees had done what they were supposed to do, 
notwithstanding the strength of the storm on the East part of 
town, on Lake Pontchartrain, it wasn't that strong. If the 
levees had done what they were designed to do, a lot of the 
flooding of New Orleans would not have occurred, and a lot of 
the suffering that occurred as a result of the flooding would 
not have occurred. Am I correct in drawing that conclusion, Dr. 
Seed and Dr. Nicholson?
    Mr. Seed. The latter part of your conclusion is 
unequivocally correct.
    Senator Lieberman. Which is--just to clarify----
    Mr. Seed. Which is that the levees would have been expected 
to perform adequately at these levels if they had been designed 
and constructed properly. The opening sentence was a little bit 
troublesome inasmuch as you said it would be the result of 
human error. It may not have been the result of human error. 
There is a high likelihood that it was, but we are receiving 
some very disturbing reports from people who were involved in 
some of these projects, and it suggests that perhaps not just 
human error was involved, but there may have been some 
malfeasance. Some of the sections may not have been constructed 
as they were designed.
    Senator Lieberman. Yes.
    Mr. Seed. That needs further investigating.
    Senator Lieberman. That is very important. So it was not 
only an error, or might be called technical judgment about what 
was necessary there, but that, in fact, the construction work 
done on those levees was not up to the design specifications, 
is that what I am hearing you say?
    Mr. Seed. We are pursuing stories of that, in fact, and we 
are seeing evidence from what we saw in the field versus some 
of the design drawings we have been able to obtain so far that 
would suggest that some of those stories might bear some 
fruits. We are continuing to study it.
    Senator Lieberman. And help us understand, leaving that 
aside for a moment, the malfeasance possibility, what the 
errors in design were here. Was it a failure--I have heard you 
refer at different times to the soil configuration. Was it a 
failure to allow for the unique qualities of the soil there?
    Mr. Seed. Somebody asked me about a month ago the 
difference between a dam and a levee.
    Senator Lieberman. Yes.
    Mr. Seed. In principle, a dam is tall and narrow and a 
levee is short and very long. The real difference is that with 
a dam, we pick our sites and we pick them very carefully. We 
build levees usually at the edge of swamps, sometimes in 
swamps. We routinely get very poor foundation conditions, so 
the poverty of the foundation conditions is not unexpected.
    Senator Lieberman. Not unusual. That is where levees are 
built. Right.
    Mr. Seed. Not unusual and we are used to that. What makes 
the New Orleans levees unusual is the high stakes involved in 
terms of the inboard population being protected. These are very 
high-risk levees with regard to consequences. In a system with 
several hundred miles of levees, it is very difficult to do 
suitable investigation and basically to nail all the details. 
The problem with the levee system is if you leave one detail 
unnailed, you leave a vulnerability which may in the end bring 
the whole system down.
    The local conditions at the sites of the three main 
breaches on the canals, the one on 17th and the two on London, 
were very challenging local conditions.
    Senator Lieberman. Right.
    Mr. Seed. There was some accommodation of that in the 
design, and we are studying very hard right now to determine 
if, in our opinion, the accommodation was suitable. Performance 
would be suggesting that it might not have been.
    And the other half of the question is whether they were 
actually built the way they were designed, and there are some 
issues there. We are hoping very much to be able to, for 
instance, pull some of the sheetpiles and see what length they 
actually are. We have several sets of design documents which 
suggest different lengths, and we have several reports that 
perhaps none of those lengths is the correct answer. But these 
things are still out there and pulling a couple of sheetpiles 
is a clear step.
    Senator Lieberman. And you are still at work on it, but I 
hear you say that notwithstanding the unique circumstances of 
the soil in the vicinity of the construction of those levees to 
protect New Orleans, particularly facing Lake Pontchartrain, 
within your field, within your expertise, that was not an 
impossible task, that it could have been done, from what you 
know now, a lot better than it, in fact, was done, so that the 
levees would have withstood the water surge.
    Mr. Seed. There was a second message, though, in what I 
said, and that is that borings were spaced at intervals, many 
miles of levee were being designed, and at some cost and some 
price, it would be possible to do a better and safer job. An 
important issue to get to later in the studies is whether, in 
fact, the level of protection that was paid for was delivered. 
But I think we have to also acknowledge the fact that the 
budgets were tight, people were squeezed, and we may not have 
been paying for enough protection. So it may be a double-ended 
question.
    Senator Lieberman. Well, that is an important question for 
us as elected officials, particularly those who fund the Army 
Corps of Engineers. But it is just an infuriating conclusion 
here, if what stands in the remaining investigations, that, in 
fact, a lot of the damage to New Orleans from Hurricane Katrina 
flooding was preventable. And it would have been prevented if 
the design and construction of the levees, particularly along 
Lake Pontchartrain and, to some extent, to the Eastern part of 
the city, had been done according to professional standards and 
specifications.
    Mr. Seed. They were done according to professional 
standards and specifications. I want to be very careful there. 
They weren't necessarily done in the way, in hindsight, we 
would have liked to have them be done, and that is because 
professional standards, and so on, cover some range. But there 
certainly was the possibility to have engineered the system to 
perform better.
    Senator Lieberman. Dr. Mlakar, I apologize because I have 
only got about a half-minute left, but I hope there is time for 
you to respond insofar as you are able at this point in your 
investigations. I do want to say that I was troubled--I 
understand the difficulty and I caught your words of rational 
conclusions here. One of the problems we are facing is the 
movement of the calendar. If your report is not coming until 
July 1 of next year, and the hurricane season begins again on 
June 1, by which time the Corps has said it would restore the 
levees to at least the pre-Katrina levels, how is your report 
going to be helpful, or as helpful as it should be?
    Mr. Mlakar. We will be sharing our interim progress with my 
colleagues in the Corps of Engineers who are responsible for 
the reconstruction. So while the final report, due to the 
serious deliberations and complexity of the problem, will take 
until July, the interim progress will be shared much before 
that as the decisions have to be made.
    Senator Lieberman. OK. Thank you. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this hearing and raising important questions about the levees 
in New Orleans, and I just want to thank this panel. You have 
been terrific. It is nice to have such expertise before us 
today and coming from an objective point of view without any 
kind of axe to grind, as so often is the case when we have 
hearings before this Committee and many other committees.
    I think it is important to learn from our mistakes and not 
to repeat them in the future. Today's testimony confirms what I 
have known since I was chairman of the Subcommittee on 
Transportation and Infrastructure. That was my first 2 years in 
the Senate. I lucked out, and I was chairman of the 
Transportation and Infrastructure Subcommittee. I had the Army 
Corps of Engineers under our jurisdiction, and at that time, I 
concluded that we were not funding the Army Corps of Engineers 
to the extent that they should be funded. We can sit here and 
we can criticize, but I think we should look at ourselves in 
the mirror and the administrations, not only this 
Administration, but previous administrations should do the same 
thing.
    In the 1960s, we were spending, in 1999 dollars, about $4 
billion on projects, $4 billion. Today, the last average from 
1999 has been about $1.5 billion. Our operation and 
maintenance, in 1999, we were behind about $250 million. Today, 
it is $1.250 billion. The real question is, had we done our 
job, had the administrations asked for the money that the Army 
Corps of Engineers should have received and had this Congress 
responded to that, and I kept saying, we need it, we need it, 
please, from the head of the Army Corps of Engineers, ask for 
the money. It just wasn't there.
    And, by the way, we then added on to them these ecological 
restoration projects. In other words, in addition to just the 
Army Corps of Engineers work, we are saying now we have these 
environmental restoration projects. We are going to throw that 
on top of you.
    Yes, sir, Dr. Seed.
    Mr. Seed. The Corps of Engineers knows how to build levees 
and how to make them safe. Euphemistically, we say somebody 
wrote the book. The Corps of Engineers literally wrote the book 
repeatedly on the creation and the safe creation of levees. 
Their compaction standards, their design standards are widely 
copied and emulated throughout the country and throughout the 
world.
    The Corps of Engineers is also struggling right now to 
repair failures in the New Orleans area, and it is painfully 
clear to our investigation team that they are struggling for 
lack of technical manpower, and we find that to be very 
daunting. We haven't done a formal study of the national 
staffing of the Corps yet, but we hope to engage in that. We 
have been taking personal surveys among our friends and 
colleagues, former students. The assistant coach of my soccer 
team is also a geotechnical engineer, and he is working on a 
big Corps levee project in Yuba City, California.
    And in all of our contacts, we are finding a shortage of 
geotechnical engineering capability and the elongage of cost 
efficiency, which is people with degrees in economics and 
management and a lack of engineering. The stunning parallel to 
us is NASA before the Challenger disaster and NASA afterwards, 
where they reinstituted their engineering and scientific 
capabilities at the cost of cost efficiency.
    I think we need to take a very strong look at ourselves as 
a Nation. We have strangled the Corps of Engineers in terms of 
budgets and support. They have responded by doing what was 
necessary to get their jobs done as best they could. But I 
think the human error issue in New Orleans is not going to be 
something which we can be pointing fingers at the Corps for. I 
think the finger pointing will be at ourselves when we are all 
done.
    Senator Voinovich. Well, the National Academy of Sciences 
has come out with some recommendations, ten recommendations on 
what we need to do to deal with the lack of scientists and 
engineers in this country, and I am hopeful that the Senate and 
the House and the Administration will adopt their 
recommendations and spend the money and make the sacrifice that 
we need in order to deal with this ongoing problem.
    This Committee has spent its time on looking at the issue 
of human capital, and if you go back to almost any problem we 
have, it is not having the right people with the right 
knowledge and skills at the right place and at the right time. 
Go back and look at it. We have neglected human capital on the 
Federal level forever, and it is time for us to change that, 
and I am glad that you brought up the lack of folks that they 
need to get the job done.
    Here we are today, and we have to make decisions about New 
Orleans. Are we going to go to a level three and rebuild this 
thing and get it so that we can get to level three, and if we 
were to do that and we decided to go to level five, would we do 
it differently? Do you understand the question? In other words, 
we have concrete, and we have under-soil that shouldn't be 
there. We are going to get in there and make it better, 
assuming you have the resources to do it. But the question is, 
if you go to a level three and the decision then is to go to a 
level five, would you do it differently in terms of going to 
the level three? In other words, can you take it to level 
three, do it right, and then say, if we go to level five, can 
you build on top of that, or if you are going to go to level 
five, would you do it differently right from the get-go?
    Dr. Mlakar or any of you, chip in on it.
    Mr. Mlakar. Thank you, Senator. Probably if we decided to 
go to level five from the get-go, there might be some different 
options open to us than if we first went to level three and 
then went to level five. I am here primarily to talk about the 
fact-finding we are doing to figure out exactly what happened, 
but as a general answer to your question, yes, there are 
probably some different options on which way you want to 
authorize us to go.
    Senator Voinovich. And then the question is, if you go to 
level three and then the decision is to go to level five, what 
is the time span, and then what do you do in the interim 
period? What if we have another hurricane? If we don't rebuild 
to level three the way it is supposed to be done, then the 
folks will still be very vulnerable in New Orleans. Can I have 
some comments from some of the other witnesses?
    Mr. van Heerden. I would respectfully encourage to go to a 
level five to start. From the hurricane statistics side, in the 
last 50 years, a major hurricane has come close to New Orleans 
on about eight different occasions, and just a slight change in 
the track of any of those hurricanes would have created a 
similar sort of flooding. Southeast Louisiana is a hurricane-
prone area, and speaking as a Louisianan, I would encourage 
that we go to Category 5 from the beginning. Thank you.
    Senator Voinovich. Dr. Seed.
    Mr. Seed. Speaking as a Californian and as an American, 
therefore not from Louisiana, I think if you do a Category 3 
first design and then go to a Category 5, many of your design 
elements will be compatible and extendable. Some of them will 
not. There will be some sunk costs which will essentially be a 
temporary, interim measure.
    Designing for a full Category 5 is no walk in the park. It 
probably involves restoration of offshore barrier islands and a 
lot of issues that are going to be well beyond concrete and 
rebar and sheetpiles and earth levees. It is a very complex 
issue and a very difficult one, and in the end, you are also 
still going to have a system which will be untested until it is 
tested. One of the great problems with levee systems is there 
is no way to do a dry run to see how you are doing.
    Mr. van Heerden. Could I make one more comment?
    Senator Voinovich. Sure.
    Mr. van Heerden. We heard in the testimony that those 
levees that were faced by wetlands weren't eroded, and we saw 
that in the slide. So I would encourage that at the same time 
we restore the levees, we restore our coastal wetlands. These 
wetlands are our outer line of defense. These wetlands are what 
take the stuffing out of the hurricanes, the barrier islands 
and the wetlands. Perhaps this is a unique opportunity to both 
reconstruct the levees and get the coastal restoration program 
going.
    Senator Voinovich. Dr. Nicholson, would you like to comment 
on this?
    Mr. Nicholson. Well, as Dr. van Heerden just mentioned, we 
did observe that where the wetlands gave you a first line of 
defense, not necessarily line of defense, but it certainly 
helped reduce the wave heights and the impact on those levees. 
We saw that very clearly. So that restoring the wetlands would 
certainly give you a front line to help reduce the impact.
    Senator Voinovich. The conclusion I get from all of you, 
then, is that if you were in our shoes and having to make a 
decision, even if we decided that we were going to build to a 
level five, then it is incumbent on us to build to level three 
and do it the right way.
    Mr. Seed. Probably the safest and secure answer to that is 
there is no way to do a level five quickly, and the people of 
New Orleans will need protection before that can be completed.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    I want to add my welcome to all of our witnesses, and I 
would like to add a special aloha to Dr. Nicholson, who, as 
Senator Collins mentioned earlier, is a professor at the 
University of Hawaii at Manoa. Dr. Nicholson, I want you to 
know that I am honored that you are leading the American 
Society of Civil Engineers team and lending your expertise to 
this worthy cause. I am pleased to have you join this hearing 
today.
    Dr. van Heerden, you have written movingly about the 
situation in the State of the Emergency Operations Center, that 
Monday evening, as you realized the levees were falling, you 
assumed that ``the Corps of Engineers, who basically owned the 
levees, would be warning everyone'' and you thought that ``the 
Corps must be monitoring the levees'' and that they would sound 
the alarm. Have you learned why the Corps did not warn everyone 
and why they weren't monitoring the levees?
    Mr. van Heerden. No, we haven't. The first call that we got 
that indicated something was amiss was when I was at the State 
Emergency Operations Center, and that was around eight o'clock 
on Monday evening, and quite honestly, at that time, everybody 
was congratulating themselves that we had dodged the bullet. We 
first heard of a nursing home somewhere, they had two feet of 
water in it and the water was rising half-a-foot an hour. They 
weren't sure where it was and they weren't sure if it was salt 
or fresh water, which would have been a key. Then, as far as I 
know, they lost telephone contact. But whether a warning was 
given, certainly at eight o'clock in the State Emergency 
Operations Center, we were unaware of it.
    Senator Akaka. Dr. Mlakar, I know you are not here to 
represent the Corps, but I would like to give you a chance to 
comment, if you are willing to do that, on this.
    Mr. Mlakar. Thank you, Senator. Yes, I am here as a 
technical expert leading the collection of the data to figure 
out exactly what happened, and I am really not prepared to 
answer this question on our emergency response but will be very 
pleased to get back with you for the record on that point.
    Senator Akaka. Thank you very much.
    Dr. van Heerden, I understand that in the summer of 2004, 
you and others from the Louisiana State University Hurricane 
Center participated in a simulation of a Category 3 storm 
hitting New Orleans. That exercise predicted that flooding 
would leave 300,000 people trapped in New Orleans. On Sunday, 
August 28, just over a year later, your LSU team warned FEMA 
and other disaster officials that there would be a significant 
event in New Orleans. What was FEMA's reaction when they were 
warned both in the summer exercise and immediately prior to the 
levees breaking that there was a disaster in the making?
    Mr. van Heerden. That is a hard one to address. In the 2004 
exercise, I think for the most part, this was the first time 
anybody had ever really thought about the consequences of a 
flooding event of New Orleans, maybe the first time that some 
of the agencies really understood what the consequence could be 
if the city was flooded.
    The only comment I had was I knew from our public opinion 
surveys that 68.2 percent of the people would leave and that 
would leave about 300,000 behind, and if you flooded the city, 
you would have over 800,000 homeless. And so we tried to press 
with FEMA the need to perhaps preposition tents and to perhaps 
find the properties in Louisiana, whether it was State parks or 
farmland, where you could erect these tents for these evacuees 
as the first line, and I was told very bluntly that Americans 
do not live in tents, and I was obviously very disappointed 
because I knew that we would have this problem that we had 
where citizens were bused all over the place, families were 
split up, and in many cases, there wasn't the first-line 
medical surveillance that could happen if you had an organized 
tent city or series of cities.
    In terms of FEMA in response to New Orleans, we made all 
our predictions, our storm surge model outputs available to 
FEMA officials via the Internet, and at the State EOC, we 
briefed them, briefed everybody there, including FEMA, and then 
the Times-Picayune Newspaper on the Sunday morning before the 
storm took one of our storm surge outputs and created a color 
graphic and indicated then that the flooding was going to 
happen.
    Senator Akaka. I was particularly interested in what 
response or reaction FEMA had about your findings and what had 
happened there.
    Dr. Seed, a member of your team was quoted in the press 
stating that your team was denied access to certain Army Corps 
of Engineers employees. Can you comment on these reports and 
describe exactly what your team requested from the Army Corps 
of Engineers and also what responses you received from them?
    Mr. Seed. We have had highly variable levels of cooperation 
from the Corps of Engineers. It has fluctuated with regard to 
the units of the Corps we have been in contact with, the 
locality of those people, and also the time of the week.
    We had a marvelous experience in the field for 2\1/2\ 
weeks, where the various teams arrived, we were squeezed as to 
numbers of people we were allowed to bring in because there 
were questions about ingress and safety and also whether, in 
fact, investigation teams might be in the way as emergency 
operations were proceeding. When we arrived on the ground, we 
learned rapidly that the situation was bigger than we could 
handle, and we pooled our resources. The Corps team, the 
investigation team led by Dr. Mlakar, literally worked 
shoulder-to-shoulder with the rest of the teams, and we did as 
much study as we could quickly because bulldozers were scooping 
up and burying vital data. So cooperation and collaboration of 
teams on the ground in the critical 2\1/2\ weeks of the field 
studies was superb.
    We were routinely promised we would be able to meet with 
local representatives from the Louisiana District, who have an 
intimate knowledge of the history and the evolution of many of 
these sites, which is fundamentally critical if you are working 
under those kinds of time constraints and you only have limited 
manpower. We never actually met any of those people at any of 
the sites. They were always busy doing other emergency work, 
and that was very disappointing to us. That was the source of 
Dr. Bea's concerns.
    We received a wonderful inbriefing document with maps and 
some cross-sections of some of the levees, which was 
tremendously useful. We were, however, not able to obtain any 
of the subsequent follow-on documents that we had requested, in 
fact, a list of documents which we had developed jointly 
amongst the various teams, including input from the ERDC team, 
until this past Saturday, when all of a sudden many documents 
were posted electronically on a website.
    So the Corps of Engineers seems to be moving in fits and 
starts. Sometimes, they are very cooperative. Sometimes, they 
are not. I was listening with painstaking diligence to Dr. 
Mlakar's comments in the opening session. The Corps of 
Engineers has repeatedly promised to provide documentation and 
access to all the teams. This involves background design 
documents and design memoranda, construction memoranda, 
maintenance and inspection reports. It also extends to ongoing 
studies they are doing right now, the borings and sampling and 
the test data. A lot of that stuff is very important. They have 
consistently promised that stuff will be forthcoming.
    In his comments today, that last piece was missing. He 
announced an intent to develop this information, but he did not 
announce an intent to share it with the other investigation 
teams. I am hoping that was an omission, not a deletion.
    Senator Akaka. Do you think the Corps was deliberately 
keeping you from meeting people?
    Mr. Seed. The Corps of Engineers has just suffered a major 
blow. The people that work for the Corps of Engineers do so 
because they have a desire to do good things and make people 
safe, and when your work doesn't go well in that regard, it is 
a very difficult situation.
    I think the Corps is struggling to get its hands around all 
of this at many levels, locally and at the national level. To 
their credit, as time passes, we do see them consistently 
making the right steps in the end. We did see the interim 
levees repaired in fits and snatches for a while, and then when 
we pointed out the flaws, the flaws were rapidly and 
appropriately addressed.
    It did take us many weeks of struggle to get our 
investigation teams in and on the ground. The Corps was 
expressing concerns about the safety of the teams and 
logistical issues and the possibility they might interfere with 
the operations. Members of our team have directed these types 
of operations. They certainly know their way around a levee and 
around construction equipment. There is no way they would be an 
obstruction in the field, and their personal safety was not 
much of an issue. We have been to countries like the Northwest 
corner of India up against the Pakistan border and many of us 
who have had 12 inoculations are immune even to mosquitoes from 
the Louisiana area, to a large extent. So we thought that was 
perhaps also a delaying tactic. We would have liked to have 
gotten in quicker. But in the end, the teams were let in. That 
doesn't always happen.
    So it is a very mixed bag. We are seeing mixed responses, 
but we are seeing the Corps consistently in the end responding 
adequately to get the job done. That lifeline hasn't been cut 
yet. We are concerned, though, that as the heat goes away, they 
continue to respond adequately to get the job done. There are a 
great many documents, and so on, we are going to need in the 
months ahead, and the data they are currently developing is, of 
course, fundamentally important.
    Senator Akaka. Thank you, Dr. Seed. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you.
    Before I call on Senator Warner, let me address the issue 
of documents. It is very troubling to this Committee that the 
forensic teams that are looking into the failures of the levees 
have not received complete and total cooperation from the Army 
Corps. I do want to point out that Dr. Mlakar is not the 
individual making document decisions, but I also want to assure 
you, Dr. Seed, and others involved in these reviews, that this 
Committee is committed to making sure that you have all the 
documents that you need from the Corps to complete your 
analysis. That is absolutely critical to your work. It is also 
critical to our work. And we, too, have had difficulty in 
receiving the documents that we need from the Army Corps and 
from the Department of Defense, in general. So this is an issue 
that this Committee will follow up on, and it is appropriate 
that I now call on the distinguished chairman of the Armed 
Services Committee who perhaps can assist us in this matter, 
also.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    First, the Senate has approached, I think in a very 
reasonable way, the extraordinary broad analysis that we must 
provide about this natural catastrophe to our Nation and the 
human suffering it involved. There are four of us on this 
Committee who serve on the Environment and Public Works 
Committee, and the distinguished Ranking Member being one of 
the four, Senator Voinovich, Senator Carper, and myself. I want 
to say from the outset what I am sure everybody knows, that the 
Corps has the primary responsibility for issues relating to 
these levees and so forth. We all recognize that.
    I have personally talked to General Strock. I have a high 
regard for his professional capabilities. He has forthrightly 
said, we haven't had the time yet to develop the answers that 
are needed, and they are busy doing so. As a matter of fact, I 
think almost each of you are in some form of consultation with 
the Corps on this. So time is needed. But I will join with 
others on this Committee to assure the Chairman and Members of 
this Committee that such documents in the possession of the 
Corps are made available to this Committee and in a timely way.
    But I think I have listened very carefully, and this is an 
excellent panel, by the way. I commend the Chairman and the 
Ranking Member for bringing it here, very competent 
individuals. I draw on a modest background of civil engineering 
in my college and university years. You are quite right about 
going, Senator Voinovich, from a level three to a level five. 
Ideally, the footings and so forth required for a level five 
are probably markedly different than what you need for a level 
three in many instances. Nevertheless, we are not here for that 
question.
    But I did want to just lay a benchmark about the Corps, and 
they are working very hard on this, and the Environment and 
Public Works Committee has purposely allowed them more time 
before they are brought before us as witnesses, but we will 
assure you that this Committee is well served by their 
documents.
    I would like to go to another matter, Madam Chairman, and 
that is one that Dr. Ivor van Heerden raised, and others, about 
if we go to a level five and so forth, we have to rely on much 
more than what man can devise. It is what nature can devise by 
way of these natural barriers, which through the years there 
has been some erosion, and the loss of the natural sediment 
from the river has not provided the help that nature needs to 
reestablish itself.
    So this brings me to the channel called, as I understand 
it, MRGO, the Mississippi River Gulf Outlet, a manmade 
navigation channel that provides a direct shipping lane from 
the Gulf of Mexico to the marine terminals in New Orleans. I 
wonder if that should not be reexamined in the light of the 
overall approach to the revitalization of this whole area.
    It is my understanding that over the years, experts have 
worried that the Mississippi River Gulf Outlet would allow a 
severe storm surge to give a direct hit at New Orleans. Is 
there any data to support that did happen in this instance? 
That concern appears to have been one that we have got to 
address. This project also has disrupted the natural flow of 
sediment, which is critical in providing the buffer zones that 
you referred to.
    So, therefore, I just wonder, do you feel as we address 
this problem, and given that there has been some reduction in 
the navigation use of this outlet and it has become somewhat 
less significant now--I have just been told that, I cannot 
corroborate it, but I will--should the MRGO be a part of the 
solution to providing for the future preservation of this area 
in the face of natural disasters?
    Mr. van Heerden. Senator, yes, we believe that a really 
hard look needs to be put on MRGO, whether it is actually 
needed, and certainly from our computer modeling, we know that 
where MRGO joins the Gulf and Coastal Waterway, the area known 
as the funnel is where we really get the amplification of the 
surge. If MRGO was to be abandoned, there is the potential of 
using parts of it as a conduit to funnel sediments elsewhere. 
Obviously, you can't have sediment in a channel that you have 
still got navigation.
    Senator Warner. Thank you.
    Mr. Mlakar. First, Senator, I would like to thank you for 
your acknowledgement that there is a great deal of effort 
involved in providing this information, and General Strock and 
all of us are, indeed, committed to be absolutely open and 
transparent in this study.
    As far as MRGO and the natural barriers and this larger 
picture, I am really here as a technical expert on what 
happened in Hurricane Katrina. We will have some information 
about that in our final conclusions, to what extent the loss of 
the wetlands, to what extent MRGO might have played a role in 
that. Others in the Corps are looking at these larger 
questions, and perhaps I would like to defer to them to answer.
    Senator Warner. Thank you very much. Dr. Seed.
    Mr. Seed. We haven't studied yet, the degree of 
vulnerability introduced by the MRGO, but it doesn't appear to 
have been a large issue in this particular case. The larger 
question is to how to move forward to something like a higher 
degree of protection, possibly a Category 4 or 5 system as is 
being discussed. It is a broader issue than reconfiguring 
something as simple as the MRGO when the barrier islands--it 
probably involves reconfiguring how that was even created in 
the New Orleans area and how they are coordinated.
    It involves the need to have somebody be in charge of the 
overall system and resolve the differences between the 
different groups who have to interact at connections and cross-
connections. It involves handling issues like the Corps of 
Engineers, who build levees and then nominally turn them over 
to locals after some period of time and those interfaces. There 
are a lot of organizational issues which need to be resolved to 
move the city safely forward.
    Senator Warner. Thank you.
    Mr. Nicholson. Similarly, the hydraulics of MRGO and the 
funnel factor are a bit out of my purview. As a geotechnical 
engineer, we are looking at other issues as far as the levees 
were concerned. But certainly, this is an area where there has 
been a lot of discussion and should be looked into further. I 
have seen some of the modeling done by the LSU Hurricane Center 
that has suggested that may certainly help at least part of the 
protection, or could be a buffer zone, if you will. But that is 
an area which is really beyond the scope of what we are looking 
at.
    Senator Warner. I thank the Chairman.
    Chairman Collins. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Again, our thanks to each of you for 
joining us today.
    I appreciate the use of the technology and all the maps and 
the photos that you showed, and you used a pointer of some 
kind, a laser pointer that was actually difficult to follow. I 
do pretty well in my color blindness tests and so forth, but it 
was just hard to pick it up on the charts, so I just share that 
with all of you so that next time it might be even more helpful 
to all of us.
    Dr. van Heerden, if I could start off with the first 
question for you, please. Last month, at a hearing on another 
committee that I serve on, the Environment and Public Works 
Committee, a Lieutenant General whose name is Strock, Carl 
Strock--I don't know if you know him, but he is the Chief of 
Engineers. He stated that the path of Hurricane Katrina was 
such that the wetland loss was not an issue in this particular 
storm. I would just ask for you to react to that comment.
    Mr. van Heerden. If we had the wetlands we had in the 1870s 
now----
    Senator Carper. In the when?
    Mr. van Heerden. I say 100 years ago, the surge would have 
been dramatically less, and there are two very important 
reasons for that. First off, if you imagine a hurricane moving 
forwards with very strong winds, the winds that are blowing on 
land are on the right-hand side and that is blowing the water 
towards the land. But on the left-hand side, the winds are 
blowing offshore and that is blowing the water away from the 
land.
    So if you have very significant and healthy wetlands and 
barrier islands on the left-hand side, you start to suck the 
wind energy out of that storm. On the right-hand side, if you 
have substantial wetlands and barrier islands, you add 
significant friction to that surge. And if you have ever had 
the opportunity to go into the Louisiana cypress swamps, which 
used to be very----
    Senator Carper. I have never had that opportunity.
    Mr. van Heerden. Do come down. But if the cypress swamps 
that used to exist where MRGO, along the course of MRGO that 
got destroyed by the salt, what you see is a 60 to 70-foot high 
wall of gray tree stumps, and when that water tries to flow 
through that, there is a lot of very significant friction, and 
you lose that flow.
    An example of how valuable the wetlands are, Hurricane 
Andrew made landfall in Louisiana in 1992, I believe it was, 
and made--its path came up the central part of Louisiana where 
we have extremely healthy wetlands and two new emerging deltas, 
two areas of net land growth, and the surge in Morgan City, 
which was some 20-odd miles inland, was only seven feet. So to 
me, that is--and in terms of the wind between the coast and 
Morgan City, the wind lost 50 percent of its energy. That is an 
example of how valuable those wetlands are in reducing 
hurricane impacts, both wind and surge.
    Senator Carper. How do we go about rebuilding the wetlands?
    Mr. van Heerden. If you look at it, all of coastal 
Louisiana was built by the Mississippi River and the sediment 
in the river is, in essence, a renewable resource. The river 
floods every year. All we have got to do is find efficient 
methods to get that sediment out of the river and back into the 
wetlands. In our toolbox, we can have major diversions, perhaps 
diverting 50 percent of the river. We know that used to happen 
every 1,000 years and that is what built large parts of 
Louisiana. There may be opportunities to do that now in the 
lower part of the river system, maybe into the Breton Delta.
    The next tools in our toolbox are siphons and minor or 
smaller diversions, and we have a couple of those, and that is 
where you simulate the distributory channels that used to 
operate when the river flooded, and you can get the sediment a 
little further, and greater volumes.
    Another important way would be to use what we call mini-
siphons. These are very small siphons spaced every few miles 
down the river that would in many ways simulate a natural 
flooding event because you would put--you wouldn't flood 
anybody locally, which is a concern, but you would put 
significant amounts of fresh water and especially the nutrient-
rich waters into the wetlands.
    And then also in the toolbox is the restoration of our 
barrier islands, and in Federal waters, there are some 
fantastic sand resources that are there that could be mined and 
that sand then used to build barrier islands. I believe it is 
very doable and would really aid Louisiana in terms of 
hurricane impacts.
    Senator Carper. All right. Thanks very much.
    I have a question that I would invite any of the panelists 
to answer. I will give you a break, Mr. van Heerden, for a 
moment, but I would ask any of the others who would like to 
take a shot at this to do so.
    Many of the Corps' calculations regarding how to build 
levees to protect New Orleans from a Category 3 hurricane were 
done, I think someone said, in the 1960s, and since then, New 
Orleans has subsided, but there has been a great deal of 
additional development, as we all know, and hundreds of square 
miles of wetlands have been lost. An independent analysis was 
done, I think for the Times-Picayune Newspaper back in 2002. I 
think it was called ``Washing Away.'' It showed that therisk 
might now be twice as large as the Corps had estimated.
    How has this affected the Corps' assumption and design 
recommendations? Is there any attempt to review and update the 
assumptions regarding the design? Mr. Mlakar.
    Mr. Mlakar. Yes, sir. I would say that we don't have an 
answer or conclusion about that right now, but that is 
certainly going to be a subject of our study.
    Senator Carper. I am sorry, say that one more time.
    Mr. Mlakar. We don't have the answer to that right now, but 
I think we will have something to report on that at the end of 
our study.
    Senator Carper. And that will be roughly when?
    Mr. Mlakar. The study will be done July 1.
    Senator Carper. All right, thank you. Yes, sir, Mr. Seed, 
an easy name for me to pronounce.
    Mr. Seed. And I apologize for my name being so simple. 
People tend to remember it, although sometimes I get called 
``Bird'' several years later. [Laughter.]
    I have a partial answer for that, and our sense is the 
partial answers are important at this early stage. Hydrology 
has advanced considerably over the past half-century, and there 
are numerous projects, Corps projects, Bureau projects, and 
projects owned by neither involving levees and also large and 
high-risk dams whose hydrology needs to be updated and the 
ramifications of which need to be studied.
    The difference between levees and dams is that dams tend to 
get reassessed every 5 and 10 years in a fairly formal system. 
There is a National Dam Safety Program which foments that. We 
don't have a National Levee Safety Program. It is a missing 
piece, and we would like to see one established.
    Many levees are beginning to protect large populations. 
Levees used to exist in the swamps, which were unpopulated. We 
have a huge problem in California with our Sacramento Delta, 
where people are now moving into the delta because the real 
estate around the delta is both built in and hugely expensive, 
and we are projecting having over 200,000 people move into that 
area in difficult and tenuous situations over the next 10 years 
alone. The prudence of that is also a political issue in 
California.
    We also have in California a city, Sacramento, with levee 
flood protection, nominally engineered by the Corps. The design 
level of flood protection intended for New Orleans was to be a 
so-called 200-year level of protection, which means about once 
every 200 years, you would expect to lose it in a major 
hurricane. As the Picayune said, the better estimate today 
might be roughly half that. We have levee systems in Sacramento 
which are nominally engineered to a 75-year level of 
protection, and the local understanding is it may be half of 
that. There are efforts to raise Folsom Dam now to help staunch 
some of the flooding and raise those levels. But we have levee 
systems throughout the United States at various levels of 
protection, and it is possible that those all need to be 
reassessed in terms of their levels of prudence.
    Senator Carper. Mr. Nicholson, do you want to add anything?
    Mr. Nicholson. Yes, just two things. First of all, I am not 
in a position to comment on what the Corps is doing or has 
understood about reevaluating the effect of the wetlands, but I 
did want to concur that the ASCE also believes that support of 
a National Levee Inspection Safety Program similar to the 
National Dam Safety Program that exists now would certainly be 
important, particularly in protecting those large urban areas. 
It is vitally important as they have been neglected to a much 
greater extent than our national dams.
    Senator Carper. One last quick one for you, Dr. Seed. You 
stated in your testimony that some inexpensive modifications to 
the levees and floodwalls could have prevented some of their 
failures. What would be the reasons for choosing not to 
undertake those modifications?
    Mr. Seed. It is almost a policy issue. The Corps of 
Engineers was authorized, which is a very specific term, to 
provide a certain level of protection for the people of New 
Orleans, and they specially sized the elevations of the tops of 
the levee and floodwall systems targeted at that. They 
typically overbuilt them in many areas by a foot and sometimes 
two to allow for long-term settlement, and the region is also 
subsiding. But by and large, that was the target, and they met 
it.
    It was not their policy to think about what would happen if 
you got one or two more feet of water. Therefore, there was no 
design provision for one or two more feet of water, but it may 
well be that with some inexpensive additions that might have 
added, at best, a few percent to the overall project cost, one 
or two or sometimes three feet of water for a few hours might 
have been accommodated safely. Our sense is that there is a bit 
of a policy issue there which needs to be evaluated.
    Senator Carper. All right. Thanks to all of you. Thanks 
very much.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman, and thank you 
for holding this important hearing. Gentleman, though I didn't 
have the time to listen to your testimony, I have read your 
statements. Just a couple of questions. I am still trying to 
understand what happened here.
    We have heard a lot of talk about building to a level five 
and the timing that would take and the cost that would take, 
but my kind of basic question as I kind of listened to the 
testimony, I think all of you have commented that the levee 
failure--I think, Mr. van Heerden, I think you talked about 
geotechnical engineering failure and talked about high porosity 
and permeability of soils. I think, in fact, every individual 
talked about the soil being an issue, that it wasn't the surge, 
as you read the paper, that the surge overcame, but there were 
issues with the soil, geotechnical issues, I think is the 
phrase that was used.
    So my first question is, did the levees break because they 
were not geared to deal with a Category 5 hurricane, or, in 
fact, what we really dealt with was something less than a 
Category 5 here? I am trying to understand why. Is there 
anybody here who is saying that the reason for the failure was 
because the levees were not adequate to protect against a 
Category 5 hurricane?
    Mr. Seed. There are two pieces of that. As Dr. Nicholson 
said, there were several dozen levee failures, breaches, and 
distressed sections. A majority of them were the result of 
overtopping, and that simply means that the hurricane was 
bigger than the levees were built to take and that will be a 
policy issue. You could pay more and get bigger, taller systems 
that would have taken more storm surge.
    But three of the particularly devastating failures, the 
ones on the 17th Street and London Avenue Canals, failed at far 
less than designed water surge levels because they were on the 
left flank, far away from where the hurricane was, and the 
water surge wasn't so big there. So those were, in fact, 
foundation failures.
    Senator Coleman. So those, just to understand, if they were 
built to level 3 but didn't have the foundation failures, we 
would not have seen the extent of damage that occurred?
    Mr. Seed. A considerable fraction of the flooding and some 
of the loss of life would have been prevented.
    Senator Coleman. I don't want to get into any finger-
pointing here, but how would that have been prevented? What 
should have gone on that didn't go on to have prevented those 
structural failures?
    Mr. Nicholson. I will take that one. First of all, I think 
I would be careful with the use of ``structural failure.'' As 
geotechnical engineers----
    Senator Coleman. I am not a geotechnical, so give me the 
right phrase. It is important that we define this. And again, 
my concern is that there is so much talk about Category 5, but 
as I read your reports--and there are cost issues, let me just 
say, there are cost issues. I fully agree with my colleague 
from Ohio about the need to have more scientists, more 
engineers, but I don't agree that the issue is simply more 
funding, and I don't believe--I would say, respectfully, Mr. 
Seed, that this kind of conflict, if we put more into cost 
efficiency, that somehow that takes away from efficiency. In 
the private sector, it doesn't work that way. You can get cost 
efficiency and have people do the right job. So I am not a 
believer that if we would have thrown more money in, 
necessarily. If that is the case, I would support that.
    So I am trying to understand the nature of the problem, why 
the problem was there, and what I am least clear on, that it 
wasn't necessarily a problem because we weren't at Category 5, 
the ability to deal with Category 5. We had less than that, and 
yet we still saw the breaches. So help me understand why that 
occurred and how that could have been prevented.
    Mr. Nicholson. OK. Well, in fact, this is a multi-faceted 
issue because we had a number of different types of flood 
control structures. We had different heights of storm surge in 
different areas. And so this discussion of Category 3, Category 
5, as Dr. van Heerden said, really is a term that is used for 
the size of the storm, and there are a couple different 
definitions which make it even more complicated. Really, the 
individual flood protection is designed for a certain level of 
storm surge.
    As Senator Lieberman had asked, if they had performed as 
they were intended, certainly, we would have seen a lot less 
flooding. Exactly what went wrong and what failed is precisely 
what we are trying to do, and we certainly need additional 
studies. We, in the field, observed many different types of 
failure mechanisms. There is not one thing that went wrong. In 
different areas, in different types of levees, we saw different 
types of failures.
    So in some cases where we saw the overtopping, it is fairly 
easy. It is the more difficult ones, such as those floodwalls 
in town on the 17th Street and London Avenue Canals where we, 
in fact, have some pretty good ideas of what had gone on. We 
understand or we can observe some of the mechanisms that had 
led to the failures. But exactly what went on, and again, we 
aren't looking at finger-pointing at this point.
    Senator Coleman. Let me ask you, who has the responsibility 
for checking the soil----
    Mr. Seed. Can I tackle that next because I think I have the 
answer you are looking for, and I think the question you asked 
is the one that we were all hoping to hear today. It is 
certainly why I flew out from California on the red-eye.
    Senator Coleman. I have taken that flight. [Laughter.]
    Mr. Seed. That is the only way we get to Washington from 
Berkeley.
    Throwing more money into the bucket is not going to fix the 
problem. For more money, you can buy higher levees, and for 
more money, you can buy an increased level of safety, but what 
you need is an increased level of assurance of safety, and to 
get an increased level of assurance of safety, you need to make 
some fundamental changes as to how levee systems in the New 
Orleans area are designed and built and maintained.
    No one is in charge. You have multiple agencies, multiple 
organizations, some of whom aren't on speaking terms with each 
other, sharing responsibilities for public safety. The Corps of 
Engineers had asked to put flood gates into the three canals, 
which nominally might have mitigated and prevented the three 
main breaches that did so much destruction downtown. But they 
weren't able to do that because, unique to New Orleans, the 
Reclamation Districts who were responsible for maintaining the 
levees are separate from the Water and Sewerage District, which 
does the pumping. Ordinarily, the Reclamation District does the 
dewatering pumping, which is separate from the water system. 
These guys don't get along. The Sewerage District was so 
concerned they wouldn't be able to pump through gates which had 
to be opened and closed that in the end, the Corps, against its 
desires, was forced instead to line the canals, which they did 
with some umbrage, and the locals bore a higher than typical 
fraction of the shared cost as a result of that.
    The constant interaction between different groups who fight 
over turf, pride, and other issues to the detriment of public 
safety needs to be stopped. There needs to be some overall 
coordination. Levees in the New Orleans area are at different 
heights. You can stand--we have a photograph in our report at 
one section where you can clearly see five different 
elevations, all within 100 yards of each other. If you have 
five different elevations within 100 yards, the person who 
built the lowest section wins because they become the public 
hazard. There is a need to coordinate these things.
    At a more global level, if someone is to be in charge, in 
all likelihood, it needs to be somebody very much like the 
Corps of Engineers, quite likely the Corps of Engineers. The 
Corps of Engineers needs to have the manpower and the technical 
expertise in terms of boots on the ground to get that job done.
    Standing in the field, we saw sections which just didn't 
look entirely prudent. These weren't individual sections of a 
levee or of a wall, these were sections where a levee and a 
wall joined together and the joint didn't look right. Now, we 
had the benefit that nature had highlighted that for us by 
scouring around the edge so we could all see that there was a 
scour path, but we all thought, looking at them, maybe we would 
have foreseen the scour path had we been standing there before 
the hurricane. Hindsight is 20/20, but we think perhaps we 
would have noted that. It doesn't seem to us that people stood 
there and looked at that. There seems to have been a shortage 
of boots on the ground.
    We are seeing design documents which are signed off and 
initialed and checked by just one individual and not by 
several, as would be customary, and we are seeing the Corps 
stretched very thin, trying to do the work to build and to 
complete the building of a very complex system, and it doesn't 
feel like the manpower and especially the technical expertise 
is entirely at the level we would like to see it at to get a 
job of this nature and this sensitivity accomplished.
    Senator Coleman. Mr. van Heerden.
    Mr. van Heerden. I met with Colonel Wagenaar last week, the 
District Engineer in New Orleans, and recognizing, as Professor 
Seed does, that perhaps they don't have all the technical 
expertise they need at this point in time, we offered from the 
University of Louisiana to help. We have got, obviously, a lot 
of engineering departments, geotechnical engineers, and so 
maybe as a beginning or a short gap or whatever, we suggest 
that the Corps of Engineers reach out to academia and try and 
capture some of the talents and expertise in the universities.
    Senator Coleman. If I may, and this is just a comment, 
Madam Chairman, I served as Mayor of St. Paul, Minnesota. We 
are at the beginning of the navigable headwaters. The 
Mississippi starts there and is navigable right down to New 
Orleans. When I was Mayor, we had floodings that came very 
close to flooding situations. We have a major power plant on 
the Mississippi, and we were within a short level of major 
problems. I worked extensively with the Corps. We actually 
built a gate and a floodwall around one of the neighboring 
islands, which was the Corps really going outside of the way 
they usually operate so that citizens could use this island 
when there wasn't a problem with the flood, but you could close 
the gate and provide protection. They showed great flexibility.
    But I really do appreciate two things that I have heard 
here, and one of which reminds me of what we heard in the post-
September 11 hearings. Who is in charge? If you see a problem, 
how do you get it done? We are all listening to this and 
saying, we have heard this before, the kind of silo effect in 
government.
    So I would just say thank you, one, for expressing the need 
to coordinate, and then the second piece, which we have heard 
before, too, is the need for government to reach out. Whether 
it is FEMA calling Wal-Mart and figuring out how to position 
supplies or the Corps working with academia and others, and we 
did that in our development, to take advantage of the talent 
that is out there. So it isn't necessarily just throwing more 
money. I am not against that where it is needed. But it is 
about how you use it efficiently and how decisions are made, 
and so I do appreciate your response.
    Mr. Seed. Could I add a third piece to that, though, and 
that is something we saw with NASA and the Challenger and we 
see in other agencies. It is important that we don't just 
simply reach out to academia. The Corps, in streamlining its 
operations, is outsourcing an increasing fraction of its work 
in engineering and especially in geotechnical engineering. I 
should welcome that because, of course, I could do work for the 
Corps and I could get paid for it as opposed to doing these 
investigations where we are all volunteers and my wife is nuts. 
[Laughter.]
    But against my own better judgment, I am going to tell you 
that, I think, the Corps of Engineers needs to have a very 
strong internal capability because what happened to NASA was 
they lost the ability to keep track of the outsourced 
engineering. You bring elegant people in from the outside. If 
you can't deal with them on a level playing field, you have a 
hard time checking what they are doing and problems can arise. 
It is important that the Corps have an internal capability 
which matches the problem, as well.
    Senator Coleman. You have made that point quite clear 
today. Thank you.
    Chairman Collins. Thank you, Senator Coleman. You brought 
up an incredibly important issue. Our full Committee 
investigation has already revealed that there was a great deal 
of confusion among the Army Corps, the Levee Board, the State 
Department of Transportation, and the Water and Sewer District 
on who was responsible for what, and that is an issue that we 
are going to be pursuing in a subsequent hearing because there 
is also evidence uncovered by our investigators that that 
confusion about who is responsible for what delayed the 
response when the levees failed, and it is incredibly important 
that we pursue that issue and focus not just on the 
specifications that are needed for the new, improved levee 
system, but also the organizational issues that will clearly 
designate an agency to be in charge. So I appreciate your 
raising that issue.
    I do want to follow up on that issue with Dr. Nicholson 
because we have had a number of experts, including Dr. Seed 
today, who have suggested that the failure to have one 
department or agency with clear control and responsibility for 
the designing, the building, and the maintenance of the levees 
contributed to the damage from Hurricane Katrina. From your 
perspective, what would be some of the problems from a civil 
engineering standpoint associated with the lack of a 
comprehensive effort and with a lack of a clear role 
designating responsibilities?
    Mr. Nicholson. I see that really as a two-part question, or 
two-part answer. Certainly, we observed in the field where you 
had different organizations in charge of the design, 
maintenance, and even the construction of certain parts of 
levees, where they came together, that was one of the 
transition problems we saw and----
    Chairman Collins. If I could just interrupt you for a 
second, is that the issue with the transition points that both 
you and Dr. Seed referred to, where you have very different 
materials being used, where the seams don't seem to go together 
in a logical way once they are uncovered?
    Mr. Nicholson. Well, certainly we find that each individual 
organization will do as they see fit, and when the two sections 
of the flood control system operated or owned, designed, and 
maintained by each of those different organizations come 
together, they may be in two different manners. They may have 
two different heights. They may be two different materials.
    And so the transition from one to the next needs to be more 
continuous. We need to maintain or improve the connection 
between those two. If they are at different heights, if they 
are different materials, those are two of the big transition 
problems. As I showed in my last slide there, we have also got 
different organizations such as the railroads coming in with a 
very different purpose and aspect of what they believe is their 
greatest importance. They may not have in their mind the same, 
not just agenda, but the same comprehension of what their part 
of the responsibility is. And so that is a very difficult 
question or problem that we see.
    How to answer that, as has been brought up, perhaps the 
solution would be to put one organization in charge and to 
oversee and essentially be responsible for that, and overseeing 
and essentially having authority over the other organizations.
    Chairman Collins. Dr. Seed, do you agree with that?
    Mr. Seed. Yes. The important analogy here is that building 
a levee system is like building a boat or building a Space 
Shuttle. You have a lot of pieces that have to fit together 
perfectly because if you have a flaw, you are going to lose the 
whole thing. It is not necessarily reasonable to think you can 
build 80-some-odd miles of levees in a ring if you have got a 
half-dozen or more different parties involved and if you do it 
in 143 individual projects. It is perhaps better to have an 
overall vision and one group responsible, like the captain of a 
ship, whose job it is to be sure that the ship is seaworthy 
before it sails.
    Chairman Collins. Dr. Mlakar, what is your opinion on that?
    Mr. Mlakar. I think the results of our studies, I believe, 
ma'am, you began by saying we need to really investigate this 
thoroughly, and I think the final results will have some 
recommendations along those lines.
    Chairman Collins. You are withholding judgment for now.
    Dr. van Heerden, what do you think? Should we have one 
agency with clear, overall responsibility?
    Mr. van Heerden. Madam Chairman, my comment is going to 
politically raise some hackles in Louisiana, but I believe 
there should be one Levee Board. It is a scale of efficiency. 
It is a scale of expertise. And it becomes a case of when you 
have all these different agencies, one hand doesn't know what 
the next hand is doing. So in my opinion, yes, we need one 
Levee Board, and they should be controlling all the levee 
systems, not a large number of levee boards, each funded in a 
different way, each appointed in a different way, in many 
cases, levee board members not being engineers or having 
experience in drainage or understanding some of the models.
    Chairman Collins. Thank you.
    Dr. Nicholson, just one final question. Dr. Seed raised the 
issue of possible malfeasance or corruption in the construction 
or the materials used for some of the levees as opposed to the 
specifications not being adequate, but of perhaps the case 
where the specifications were adequate but the contractor did 
not comply. Did you see any examples of the inferior materials 
being used in the levees as part of your review?
    Mr. Nicholson. We don't have exact information to answer 
the first part of that question as far as what was specified or 
not used as specified. We did see what we considered to be 
inferior materials in some cases, perhaps, but that may well 
have been allowed in the specifications.
    Chairman Collins. Could you give us an example of the 
inferior materials?
    Mr. Nicholson. I think the best example of that was using 
sand and the so-called shell fill as embankment material, the 
highly erodible materials that may have been sufficient if you 
had not had any erosion, but as soon as you start that 
erosional process, they quickly disappear, and we saw wide 
evidence of large sections of the levees simply gone.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks again. 
The panel has been really superb. I thank you for your public 
service and what you are doing in coming before us.
    I want to take you to a different part of your 
investigations, which is to say the Committee has obviously 
focused on why the levees failed, but also, for various 
reasons, when the levees failed. Knowing when the levees failed 
will help give us some understanding of the specific period 
during the storm when the breaks happened and the different 
water levels and forces at work at that time.
    Second, knowing when the levees were overcome or failed 
will help us understand when different parts of the city and 
the surrounding parishes began to flood and help us assess how 
and when the State, local, and Federal officials learned of 
these breaks and responded to them.
    So if I could start with you, Dr. van Heerden, if you would 
please walk us through your best estimates this morning of when 
the various levees failed causing the flooding of New Orleans.
    Mr. van Heerden. We set up something called our stop-clock 
program where we created a hotline for people to phone us when 
they returned to their homes to tell us the times on hand-face 
clocks, and working--this is now just preliminary data----
    Senator Lieberman. Right.
    Mr. van Heerden [continuing]. But we started in the lower 
Ninth Ward. It appears that they started to flood from the 
East, in other words, from the area of the funnel, as early as 
5 a.m., and by 6 a.m., it had reached Tennessee Street, which 
is very close to where the two big breaches occurred.
    Senator Lieberman. Right.
    Mr. van Heerden. At 5 in the morning, there was--where the 
railroad crosses the Industrial Canal at Interstate 10, from 
the water level record in that area, we understand that the 
sandbags that they had used to seal the levees at the railroads 
blew out. That was, we believe, around 5 a.m.
    In terms of the two large breaches on the Industrial Canal, 
apparently they occurred between 7:15 a.m. and 7:30 a.m., and 
that is just from testimony. We don't have the clocks here.
    Senator Lieberman. Right.
    Mr. van Heerden. In terms of the London Avenue Canal, 
again, this is all very preliminary data, the Mirabeau breach, 
the one on the South, the one closest into the city, we believe 
occurred between 9 a.m. and 9:30 a.m. The one at Filmore 
Street, between 10 and 10:30 a.m. We have got a number of 
clocks at 10:15 a.m. And then at the 17th Street Canal, between 
10 and 10:30 a.m. But this is very preliminary data. We are 
still getting lots of phone calls.
    Senator Lieberman. It is very significant because based on 
the data you have, the preliminary conclusions, the major levee 
failures had occurred by mid-morning on August 29 and the 
flooding, therefore, had begun. Part of what we are pursuing 
here is when--of course, it was a chaotic situation, very 
difficult in many ways to determine what was happening, but for 
various reasons, word did not apparently reach people at the 
top of the Federal Government until, by some estimates, 
Tuesday, and that may have affected, obviously, what the 
response would be.
    Do any of the others of you on the--yes, Dr. Mlakar, do you 
have some conclusions about the time of the levees----
    Mr. Mlakar. We don't have conclusions yet, but we are 
looking into that issue, exactly when it did fail.
    Senator Lieberman. Yes.
    Mr. Mlakar. That is very important to understanding how and 
why it failed. Like Dr. van Heerden, we have been looking at 
clocks. We have got on the order of 50. You know, the clock 
might stop when it loses power, the clock might stop when it is 
flooded. There are some issues there that we have got to sort 
through.
    We have talked to 70 eyewitnesses out of an identified 
group of 100--that is still growing--to get their 
recollections. As you can well imagine, we might have one 
person recall 8 a.m. and the person across the street is sure 
that it was still dry at 10 a.m., so we have got some issues in 
resolving the witness testimony.
    And then finally, in addition to that, we have identified 
some security cameras that were operating that should have a 
very good field of view on what was happening, and we are in 
the process of acquiring their tapes.
    Senator Lieberman. Security cameras that were there for 
that reason, or just for reasons----
    Mr. Mlakar. For some other reason, perhaps a 7-Eleven, a 
bank, or whatever is just surveiling and you happened in the 
field of view to have an area that is eventually breached and 
flooded. So we are in the process of synthesizing all that 
information, and as part of this, we will be getting together 
with my colleague from LSU and combining their information with 
our information to give all of us the best estimate of when. 
And while we are primarily interested in that information for 
helping us understand the how and the why----
    Senator Lieberman. Because you will relate it to what the 
storm was doing at that point.
    Mr. Mlakar. Exactly. It will also be information useful for 
your slightly different purpose.
    Senator Lieberman. Absolutely. Dr. Seed and Dr. Nicholson, 
do you reach independent judgments about the times at which the 
levees broke?
    Mr. Seed. We have been funneling our information in terms 
of witnesses' statements, and so on, to the other two groups 
because we lack the manpower and resources to really do a full 
processing of that. But the timelines described by Dr. van 
Heerden would make sense with the geotechnical observations we 
see in the field, and so they are consistent.
    Mr. Nicholson. I would have to agree with that, as well.
    Senator Lieberman. Thank you all. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Coleman.
    Senator Coleman. Thanks, Madam Chairman. Just a couple of 
other areas of inquiry.
    Mr. Seed, you have talked a lot about NASA and the 
comparisons to NASA. One of the things that you have in the 
NASA program is you have redundancies, and levees don't appear 
to have redundancies, though I am wondering, and perhaps you 
can educate me on this, what are the redundancy options, doable 
options? Is it wetlands? Is it barriers? Is that what one would 
call a redundancy? This investment, I keep coming back to the 
cost issue, the former mayor in me. I guess I am going through 
the protection about Category 3 versus Category 5. Does the 
existence of redundancies, does that move something from a 
Category 3 to a Category 5 or does it just strengthen the 
ability to withstand a Category 3? Help me understand this 
redundancy issue.
    Mr. Seed. Not necessarily. Redundancy is hugely expensive 
in the context of levees. The only really thorough redundant 
system in the world is that of Holland, which in the mid-1950s 
the entire Nation was flooded by a North Sea storm, and so they 
have tremendous incentive, literally the entire country was 
flooded. They operate in polders, which are essentially like 
the containment compartments in a ship, so that if their 
exterior coastal defense is breached, you flood only a section 
and then you hit a second levee. And so they have defense in 
depth. But if that is the single leading issue for your nation, 
you can put a large fraction of your national resources into 
that.
    I don't think we can get a large fraction of our national 
resources into the New Orleans levees in the next week or two. 
I don't think that is going to happen. So redundancy is very 
expensive. More likely, we are going to have to build levees 
which are vastly more secure. In California, we have a few 
places where we have sacrificial islands. We have things that 
are designed to fail like a fuse in an electrical system, which 
will reduce water levels and take water levels down. So there 
are a lot of options we can look at there, but by and large, in 
the New Orleans area, given the geometries, redundancy would be 
very difficult to achieve.
    Senator Coleman. Do you other gentlemen want to comment on 
that issue?
    Mr. van Heerden. Only that restoring the wetlands would, in 
essence, act in a small way as a second barrier.
    Senator Coleman. Let me just touch on two other points. 
One, is there--and this may not be for your panel, but I am 
interested, are any lessons to be learned here about the 
relationship between FEMA and the Corps? Is there anything 
anybody wants to comment on regarding FEMA and the Corps in 
terms of interaction, communication, efficiency of what one 
does helping the other, or perhaps hindering the other?
    Mr. Seed. Two separate operations, in our view, speaking 
for our team, the Corps' job is to prevent these things from 
happening in the first place and then to fix them afterwards, 
and FEMA does the middle piece, which is the emergency.
    Senator Coleman. Is there a notification piece, though? 
What I am hearing, clearly, the Corps has a question about 
timing or has a part in saying, hey, we have a problem. And 
again, this may not be your area of expertise, but at a certain 
point, knowing there is a problem and then being able to 
respond, I think there would be some issues there.
    Mr. Seed. Well, I guess the heart of the issue we discussed 
earlier, if the lines of responsibility and who is in charge 
aren't clear, it is very hard to decide who needs to be issuing 
warnings and public notices, and the Corps' policy is to build 
these systems and then turn them over to locals. They don't 
remain the proprietors forever. So there are some difficult 
issues there.
    The turning over is also problematic. California has a 
great many Corps-built levees which are now turned over to 
locals who then have deep pockets liability for these kinds of 
things. You, of course, can't sue the Corps of Engineers as a 
Federal agency. They have tremendous immunity for water-related 
and safety-related projects. So when they get turned over to 
the locals, the locals aren't necessarily all that pleased to 
be getting them because they acquire the liability, whereas 
while the Corps operates them, they are a little bit protected.
    Senator Coleman. And they acquire the maintenance 
responsibility, also.
    Mr. Seed. They do, but it is the liability which is 
crushing. So there are some issues as to how levees happen in 
the United States. I am hoping that all this will trigger an 
investigation at a more global level of where levees are, what 
the conditions of levees are, and more fundamentally, how 
levees happen, how they are designed and built, how they are 
constructed and maintained, and how people allow decisions with 
regard to who lives where and who lives above sea level and the 
levels of protection and so on. It is a huge, festering 
national issue which has been off the radar screen.
    As my wife likes to tell me, levees are currently sexy for 
maybe a month or two, but by and large, when these disasters 
aren't hitting, levees are just big piles of dirt. They are not 
all that attractive. They don't get much attention.
    Mr. Mlakar. Sir, I believe your question was about the 
relationship between FEMA and the Corps. We certainly 
appreciate your interest in that, but I think you are right. 
There are probably others in the Corps that are much more 
qualified to speak to that than I.
    Senator Coleman. Let me just say, Madam Chairman, you 
raised the issue about inferior materials, malfeasance, 
corruption, and I just want to say, I think we really have to 
look into that. I was in Armenia not too long ago, and things 
are falling apart there because everything was built with, 
like, 15 percent less rebar because it went into the pockets of 
someone. That is corruption on a clear level.
    And we hear a lot of murmuring, and maybe folks don't want 
to talk about it, we hear murmuring about New Orleans, 
Louisiana has had a history of corruption in public officials. 
It has happened. I don't want to offend anybody, so I think we 
have to get beyond the murmuring and take a very close look, a 
very earnest look. Is that an issue? Contractors, were they not 
putting in the materials they were supposed to? And again, we 
don't have the answers. We clearly saw inferior materials. But 
I think we have to have the courage to take a look at that and 
not to point a finger or to offend, but to say we have an 
obligation to make sure that what was done was done right.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Let me ask this fast question before I ask my last one, and 
this is to Dr. Seed. You stated that throwing money at the 
Corps will not solve the problem, but you also said that the 
Corps is lacking staff, or the quote is ``boots on the 
ground.'' To clarify, is there a way to fix the staffing issue 
without additional funding, in your opinion?
    Mr. Seed. No. My comment was intended in the other 
direction. I don't think simply putting additional funding in 
guarantees you are getting good boots on the ground. You can 
spend that money in other ways. I am hoping that there is some 
oversight capability, and I am hoping that if funding is 
injected, there will be some reorganization and some rebuilding 
of some of the engineering expertise, which was formerly very 
impressive in those areas of endeavor.
    Senator Akaka. My final wrap-up question, Madam Chairman, 
is for Dr. Nicholson and Dr. Seed. You both made specific 
recommendations for what can be done to improve the New Orleans 
levee system in the future, and I want to open this question 
also to the two other witnesses. Which recommendations can be 
implemented in the short term and are relatively inexpensive, 
and which recommendations require more time and resources to 
implement? Also, if you care to respond, which measures the 
Corps of Engineers should have implemented prior to Katrina. 
Dr. Seed.
    Mr. Seed. Those are three different questions. I guess I am 
inferring a third one there. The things that can be done 
quickly aren't necessarily the ones that need to be done as 
quickly. There is an urgency to some of them, and the third one 
is the easiest question.
    The Corps of Engineers were given operating instructions. 
They were given orders. They were authorized for certain 
things, and they strove to fulfill those specifications. It 
would be good if their instructions were more flexible. It 
wasn't their job to do the kinds of things that we see that 
could have been done better. That wasn't part of their task. It 
wasn't their assignment. So it is a little bit unfair to do 
finger-pointing because something was omitted. More troubling 
are the three canal failures, which appear to be foundation 
issues. That will be a tougher issue.
    What can be done quickly, you can get yourself more 
protection by installing splash pads on the inboard faces of a 
lot of the floodwalls. That would be a very inexpensive and 
rapidly implementable fix.
    Some things are much harder than that, but they are more 
urgent. Getting the MRGO levee segment back up and operating is 
hugely vital. That was the back door. It is across 15 miles of 
swamp from the developed areas, but the water came across that 
swamp, and it didn't even slow down. It was not interested in 
doing so. And so the Ninth Ward and the St. Bernard Parish were 
essentially toast from the first time that flood hit. Getting 
those levees rebuilt is hugely urgent and very difficult to do 
in a timely manner.
    At a more global level, if the system is going to work, 
putting somebody in charge is important. It is not very 
expensive to put somebody in charge necessarily, but it is 
going to take some time to achieve that because you are going 
to have to enact legislation and take some level of control, 
probably at a Federal level.
    And finally, if the Corps of Engineers is going to be that 
someone, and they would appear to be the only suitable 
candidate, the Corps of Engineers is also going to have to do 
some restructuring and some rebuilding of some of its 
capabilities, and that will not be a short-term issue. It is 
much easier to whittle down an organization than it is to 
rebuild it. You can do a lot of damage in 3 or 4 years that 
might take a decade or longer to repair.
    Senator Akaka. Dr. Nicholson.
    Mr. Nicholson. I would agree with much of what Dr. Seed 
said as far as overtopping protection and getting the MRGO 
length of levee restored, as that is the front line of 
protection for much of that area. Certainly the whole St. 
Bernard Parish area took that as their--or lost that front line 
of protection.
    But to go a little step further, for quick and inexpensive, 
those are very difficult things. Those two options are maybe 
the two that would be quick and inexpensive. But at the next 
level, and this may not be quick and not all that inexpensive, 
would be, as I think we both agreed earlier, would be the 
enactment of a National Levee Safety Program which would 
oversee New Orleans at about the same cost, and I believe that 
is about $10 million a year for those two programs, to have a 
levee protection program in New Orleans, as well as in 
California. It would help to get more attention paid to those 
vital infrastructure elements.
    Mr. Seed. And not just New Orleans and California. We have 
levees in a lot of places. Most States have levees. We have 
massive levee systems up and down the Mississippi and Ohio 
Valleys. We have levees in the Charleston area. So I would hope 
it is something which would have some national interest at this 
point.
    Mr. Nicholson. I should say, even Hawaii has a small 
section of levees.
    Senator Akaka. Dr. Mlakar.
    Mr. Mlakar. Yes, thank you. Rather than speculate as we are 
just getting into this of what we need to do in the short- and 
the long-term, I would like to answer your question by 
reiterating the Corps' commitment here in a thoroughly open and 
transparent manner to getting to the answers and finding out 
the how and the why it happened, and then I think the answers 
to your questions will be clear.
    Senator Akaka. Dr. van Heerden.
    Mr. van Heerden. I have two comments. One is the academics 
of how the soil failure actually occurred don't detract from 
the fact that we had soil failure and you can very visually see 
those levee systems slid many tens of feet. So what I would ask 
is that we identify other areas in our levee systems that 
perhaps didn't fail or could have failed where we have similar 
soil conditions and perhaps come in and drive a secondary line 
of sheetpile down to 50, 60, 70 feet, whatever the case may be, 
to create that barrier to stop the seepage.
    The second thing is, and very important to Louisiana, some 
of our parishes, some of the levee boards do not have a very 
strong or robust economic base in which to get funds. Just as 
the Federal Government took over the building of the levees 
after the 1927 flood on the Mississippi, and they paid for them 
and built them, perhaps this is a time in terms of some of our 
jeweled cities like New Orleans for the Federal Government to 
offer the same level of support and come in and build the 
levees without us having to rely on the limited incomes of some 
of these parishes and levee boards in Louisiana.
    Senator Akaka. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you.
    I want to thank all of our witnesses today for truly 
excellent testimony. Your testimony and statements have been 
extremely helpful to us as the Committee continues its 
investigation into the preparation for and response to 
Hurricane Katrina. It is absolutely critical that we get a 
better understanding of why the levee system failed and you 
have helped us to do so today.
    I want to assure you that your full statements and any 
additional material that you may wish to submit will be 
included in the hearing record. In addition, Members of the 
Committee may have some additional written questions which we 
will be submitting to you. I very much appreciate the efforts 
that all of you made to be here today.
    The hearing record will remain open for 15 days. I want to 
also thank our staff for their hard work on this investigation.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Very briefly, I 
join in the thanks. It strikes me, as I have listened to you 
this morning and read your papers, that you are men of science 
and you speak in technical terms and very reasoned tones, but 
the testimony that you have given really cries out to us to act 
decisively. And if I might add, generously in terms of support 
for the Army Corps, to make sure that nothing like this ever 
happens again because you do deepen, in your testimony and your 
investigation, you deepen the tragedy of Hurricane Katrina and 
the failure associated with it because you now tell us that not 
only was it a failure of governmental preparation and response 
to the flood, but the flood itself could have been 
significantly prevented had the design and construction of the 
levees been what they should have been.
    I would ask you this as you go forward in continuing your 
work. It may be that what you find not only helps us understand 
what happened, but as you have suggested a few times today, you 
may also come across some indications of, for want of a better 
term, what I would call a ticking time bomb, some other 
vulnerability, as I think you said at the end, Dr. van Heerden, 
that didn't fail this time but might again. And, we want to 
work together to make sure that it doesn't next time.
    But I know most of you are working with, talk about not 
much resources, a lot of you are giving your own time, and this 
is an enormously important contribution you are making that 
only people of your experience and expertise can make, so thank 
you very much.
    Chairman Collins. Thank you. This hearing is now adjourned.
    [Whereupon, at 12:19 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4446.001

[GRAPHIC] [TIFF OMITTED] T4446.002

[GRAPHIC] [TIFF OMITTED] T4446.003

[GRAPHIC] [TIFF OMITTED] T4446.004

[GRAPHIC] [TIFF OMITTED] T4446.005

[GRAPHIC] [TIFF OMITTED] T4446.006

[GRAPHIC] [TIFF OMITTED] T4446.007

[GRAPHIC] [TIFF OMITTED] T4446.008

[GRAPHIC] [TIFF OMITTED] T4446.009

[GRAPHIC] [TIFF OMITTED] T4446.010

[GRAPHIC] [TIFF OMITTED] T4446.011

[GRAPHIC] [TIFF OMITTED] T4446.012

[GRAPHIC] [TIFF OMITTED] T4446.013

[GRAPHIC] [TIFF OMITTED] T4446.014

[GRAPHIC] [TIFF OMITTED] T4446.015

[GRAPHIC] [TIFF OMITTED] T4446.016

[GRAPHIC] [TIFF OMITTED] T4446.017

[GRAPHIC] [TIFF OMITTED] T4446.018

[GRAPHIC] [TIFF OMITTED] T4446.019

[GRAPHIC] [TIFF OMITTED] T4446.020

[GRAPHIC] [TIFF OMITTED] T4446.021

[GRAPHIC] [TIFF OMITTED] T4446.022

[GRAPHIC] [TIFF OMITTED] T4446.023

[GRAPHIC] [TIFF OMITTED] T4446.024

[GRAPHIC] [TIFF OMITTED] T4446.025

[GRAPHIC] [TIFF OMITTED] T4446.026

[GRAPHIC] [TIFF OMITTED] T4446.027

[GRAPHIC] [TIFF OMITTED] T4446.028

[GRAPHIC] [TIFF OMITTED] T4446.029

[GRAPHIC] [TIFF OMITTED] T4446.030

[GRAPHIC] [TIFF OMITTED] T4446.031

[GRAPHIC] [TIFF OMITTED] T4446.032

[GRAPHIC] [TIFF OMITTED] T4446.033

[GRAPHIC] [TIFF OMITTED] T4446.034

[GRAPHIC] [TIFF OMITTED] T4446.035

[GRAPHIC] [TIFF OMITTED] T4446.036

[GRAPHIC] [TIFF OMITTED] T4446.037

[GRAPHIC] [TIFF OMITTED] T4446.038

[GRAPHIC] [TIFF OMITTED] T4446.039

[GRAPHIC] [TIFF OMITTED] T4446.040

[GRAPHIC] [TIFF OMITTED] T4446.041

[GRAPHIC] [TIFF OMITTED] T4446.042

[GRAPHIC] [TIFF OMITTED] T4446.043

[GRAPHIC] [TIFF OMITTED] T4446.044

[GRAPHIC] [TIFF OMITTED] T4446.045

[GRAPHIC] [TIFF OMITTED] T4446.046

[GRAPHIC] [TIFF OMITTED] T4446.047

[GRAPHIC] [TIFF OMITTED] T4446.048

[GRAPHIC] [TIFF OMITTED] T4446.049

[GRAPHIC] [TIFF OMITTED] T4446.050

[GRAPHIC] [TIFF OMITTED] T4446.051

[GRAPHIC] [TIFF OMITTED] T4446.052

[GRAPHIC] [TIFF OMITTED] T4446.053

[GRAPHIC] [TIFF OMITTED] T4446.054

[GRAPHIC] [TIFF OMITTED] T4446.055

[GRAPHIC] [TIFF OMITTED] T4446.056

[GRAPHIC] [TIFF OMITTED] T4446.057

[GRAPHIC] [TIFF OMITTED] T4446.058

[GRAPHIC] [TIFF OMITTED] T4446.059

[GRAPHIC] [TIFF OMITTED] T4446.060

[GRAPHIC] [TIFF OMITTED] T4446.061

[GRAPHIC] [TIFF OMITTED] T4446.062

[GRAPHIC] [TIFF OMITTED] T4446.063

[GRAPHIC] [TIFF OMITTED] T4446.064

[GRAPHIC] [TIFF OMITTED] T4446.065

[GRAPHIC] [TIFF OMITTED] T4446.066

[GRAPHIC] [TIFF OMITTED] T4446.067

[GRAPHIC] [TIFF OMITTED] T4446.068

[GRAPHIC] [TIFF OMITTED] T4446.069

[GRAPHIC] [TIFF OMITTED] T4446.070

[GRAPHIC] [TIFF OMITTED] T4446.071

[GRAPHIC] [TIFF OMITTED] T4446.072

[GRAPHIC] [TIFF OMITTED] T4446.073

[GRAPHIC] [TIFF OMITTED] T4446.074

[GRAPHIC] [TIFF OMITTED] T4446.075

[GRAPHIC] [TIFF OMITTED] T4446.076

[GRAPHIC] [TIFF OMITTED] T4446.077

[GRAPHIC] [TIFF OMITTED] T4446.078

[GRAPHIC] [TIFF OMITTED] T4446.079

[GRAPHIC] [TIFF OMITTED] T4446.080

[GRAPHIC] [TIFF OMITTED] T4446.081

[GRAPHIC] [TIFF OMITTED] T4446.082

[GRAPHIC] [TIFF OMITTED] T4446.083

[GRAPHIC] [TIFF OMITTED] T4446.084

[GRAPHIC] [TIFF OMITTED] T4446.085

[GRAPHIC] [TIFF OMITTED] T4446.086

[GRAPHIC] [TIFF OMITTED] T4446.087

[GRAPHIC] [TIFF OMITTED] T4446.088

[GRAPHIC] [TIFF OMITTED] T4446.089

[GRAPHIC] [TIFF OMITTED] T4446.090

[GRAPHIC] [TIFF OMITTED] T4446.091

[GRAPHIC] [TIFF OMITTED] T4446.092

[GRAPHIC] [TIFF OMITTED] T4446.093

[GRAPHIC] [TIFF OMITTED] T4446.094

[GRAPHIC] [TIFF OMITTED] T4446.095

[GRAPHIC] [TIFF OMITTED] T4446.096

[GRAPHIC] [TIFF OMITTED] T4446.097

[GRAPHIC] [TIFF OMITTED] T4446.098

[GRAPHIC] [TIFF OMITTED] T4446.099

[GRAPHIC] [TIFF OMITTED] T4446.100

[GRAPHIC] [TIFF OMITTED] T4446.101

[GRAPHIC] [TIFF OMITTED] T4446.102

[GRAPHIC] [TIFF OMITTED] T4446.103

[GRAPHIC] [TIFF OMITTED] T4446.104

[GRAPHIC] [TIFF OMITTED] T4446.105

[GRAPHIC] [TIFF OMITTED] T4446.106

[GRAPHIC] [TIFF OMITTED] T4446.107

[GRAPHIC] [TIFF OMITTED] T4446.108

[GRAPHIC] [TIFF OMITTED] T4446.109

[GRAPHIC] [TIFF OMITTED] T4446.110

[GRAPHIC] [TIFF OMITTED] T4446.111

[GRAPHIC] [TIFF OMITTED] T4446.112

[GRAPHIC] [TIFF OMITTED] T4446.113

[GRAPHIC] [TIFF OMITTED] T4446.114

[GRAPHIC] [TIFF OMITTED] T4446.115

[GRAPHIC] [TIFF OMITTED] T4446.116

[GRAPHIC] [TIFF OMITTED] T4446.117

[GRAPHIC] [TIFF OMITTED] T4446.118

[GRAPHIC] [TIFF OMITTED] T4446.119

[GRAPHIC] [TIFF OMITTED] T4446.120

[GRAPHIC] [TIFF OMITTED] T4446.121

[GRAPHIC] [TIFF OMITTED] T4446.122

[GRAPHIC] [TIFF OMITTED] T4446.123

[GRAPHIC] [TIFF OMITTED] T4446.124

[GRAPHIC] [TIFF OMITTED] T4446.125

[GRAPHIC] [TIFF OMITTED] T4446.126

[GRAPHIC] [TIFF OMITTED] T4446.127

[GRAPHIC] [TIFF OMITTED] T4446.128

[GRAPHIC] [TIFF OMITTED] T4446.129

[GRAPHIC] [TIFF OMITTED] T4446.130

[GRAPHIC] [TIFF OMITTED] T4446.131

[GRAPHIC] [TIFF OMITTED] T4446.132

[GRAPHIC] [TIFF OMITTED] T4446.133

[GRAPHIC] [TIFF OMITTED] T4446.134

[GRAPHIC] [TIFF OMITTED] T4446.135

[GRAPHIC] [TIFF OMITTED] T4446.136

[GRAPHIC] [TIFF OMITTED] T4446.137

[GRAPHIC] [TIFF OMITTED] T4446.138

[GRAPHIC] [TIFF OMITTED] T4446.139

[GRAPHIC] [TIFF OMITTED] T4446.140

[GRAPHIC] [TIFF OMITTED] T4446.141

[GRAPHIC] [TIFF OMITTED] T4446.142

[GRAPHIC] [TIFF OMITTED] T4446.143

[GRAPHIC] [TIFF OMITTED] T4446.144

[GRAPHIC] [TIFF OMITTED] T4446.145

[GRAPHIC] [TIFF OMITTED] T4446.146

[GRAPHIC] [TIFF OMITTED] T4446.147

[GRAPHIC] [TIFF OMITTED] T4446.148

[GRAPHIC] [TIFF OMITTED] T4446.149

[GRAPHIC] [TIFF OMITTED] T4446.150

[GRAPHIC] [TIFF OMITTED] T4446.151

[GRAPHIC] [TIFF OMITTED] T4446.152

[GRAPHIC] [TIFF OMITTED] T4446.153

[GRAPHIC] [TIFF OMITTED] T4446.154

[GRAPHIC] [TIFF OMITTED] T4446.155

[GRAPHIC] [TIFF OMITTED] T4446.156

[GRAPHIC] [TIFF OMITTED] T4446.157

[GRAPHIC] [TIFF OMITTED] T4446.158

[GRAPHIC] [TIFF OMITTED] T4446.159

[GRAPHIC] [TIFF OMITTED] T4446.160

[GRAPHIC] [TIFF OMITTED] T4446.161

[GRAPHIC] [TIFF OMITTED] T4446.162

[GRAPHIC] [TIFF OMITTED] T4446.163

[GRAPHIC] [TIFF OMITTED] T4446.164

[GRAPHIC] [TIFF OMITTED] T4446.165

[GRAPHIC] [TIFF OMITTED] T4446.166

[GRAPHIC] [TIFF OMITTED] T4446.167

[GRAPHIC] [TIFF OMITTED] T4446.176

[GRAPHIC] [TIFF OMITTED] T4446.177

[GRAPHIC] [TIFF OMITTED] T4446.178

[GRAPHIC] [TIFF OMITTED] T4446.179

[GRAPHIC] [TIFF OMITTED] T4446.180

[GRAPHIC] [TIFF OMITTED] T4446.181

[GRAPHIC] [TIFF OMITTED] T4446.174

[GRAPHIC] [TIFF OMITTED] T4446.175

[GRAPHIC] [TIFF OMITTED] T4446.183

[GRAPHIC] [TIFF OMITTED] T4446.184

[GRAPHIC] [TIFF OMITTED] T4446.185

[GRAPHIC] [TIFF OMITTED] T4446.186

[GRAPHIC] [TIFF OMITTED] T4446.187

[GRAPHIC] [TIFF OMITTED] T4446.188

[GRAPHIC] [TIFF OMITTED] T4446.189

[GRAPHIC] [TIFF OMITTED] T4446.190

[GRAPHIC] [TIFF OMITTED] T4446.191

[GRAPHIC] [TIFF OMITTED] T4446.192

[GRAPHIC] [TIFF OMITTED] T4446.193

[GRAPHIC] [TIFF OMITTED] T4446.194

[GRAPHIC] [TIFF OMITTED] T4446.195

[GRAPHIC] [TIFF OMITTED] T4446.196

[GRAPHIC] [TIFF OMITTED] T4446.197

[GRAPHIC] [TIFF OMITTED] T4446.198

[GRAPHIC] [TIFF OMITTED] T4446.199

[GRAPHIC] [TIFF OMITTED] T4446.200

[GRAPHIC] [TIFF OMITTED] T4446.201

[GRAPHIC] [TIFF OMITTED] T4446.202

[GRAPHIC] [TIFF OMITTED] T4446.203

[GRAPHIC] [TIFF OMITTED] T4446.204

[GRAPHIC] [TIFF OMITTED] T4446.205

[GRAPHIC] [TIFF OMITTED] T4446.206

[GRAPHIC] [TIFF OMITTED] T4446.207

[GRAPHIC] [TIFF OMITTED] T4446.208

[GRAPHIC] [TIFF OMITTED] T4446.209

[GRAPHIC] [TIFF OMITTED] T4446.210

[GRAPHIC] [TIFF OMITTED] T4446.211

[GRAPHIC] [TIFF OMITTED] T4446.212

[GRAPHIC] [TIFF OMITTED] T4446.213

[GRAPHIC] [TIFF OMITTED] T4446.214

[GRAPHIC] [TIFF OMITTED] T4446.215

[GRAPHIC] [TIFF OMITTED] T4446.216

[GRAPHIC] [TIFF OMITTED] T4446.217

[GRAPHIC] [TIFF OMITTED] T4446.218

[GRAPHIC] [TIFF OMITTED] T4446.219

[GRAPHIC] [TIFF OMITTED] T4446.220

[GRAPHIC] [TIFF OMITTED] T4446.221

[GRAPHIC] [TIFF OMITTED] T4446.222

[GRAPHIC] [TIFF OMITTED] T4446.223

[GRAPHIC] [TIFF OMITTED] T4446.224

[GRAPHIC] [TIFF OMITTED] T4446.225

[GRAPHIC] [TIFF OMITTED] T4446.226

[GRAPHIC] [TIFF OMITTED] T4446.227

[GRAPHIC] [TIFF OMITTED] T4446.228

[GRAPHIC] [TIFF OMITTED] T4446.229

[GRAPHIC] [TIFF OMITTED] T4446.230

[GRAPHIC] [TIFF OMITTED] T4446.231

[GRAPHIC] [TIFF OMITTED] T4446.232

[GRAPHIC] [TIFF OMITTED] T4446.233

[GRAPHIC] [TIFF OMITTED] T4446.234

[GRAPHIC] [TIFF OMITTED] T4446.235

[GRAPHIC] [TIFF OMITTED] T4446.236

[GRAPHIC] [TIFF OMITTED] T4446.237

[GRAPHIC] [TIFF OMITTED] T4446.238

[GRAPHIC] [TIFF OMITTED] T4446.239

[GRAPHIC] [TIFF OMITTED] T4446.240

[GRAPHIC] [TIFF OMITTED] T4446.241

[GRAPHIC] [TIFF OMITTED] T4446.242

[GRAPHIC] [TIFF OMITTED] T4446.243

[GRAPHIC] [TIFF OMITTED] T4446.244

[GRAPHIC] [TIFF OMITTED] T4446.245

[GRAPHIC] [TIFF OMITTED] T4446.246

[GRAPHIC] [TIFF OMITTED] T4446.247

[GRAPHIC] [TIFF OMITTED] T4446.248

[GRAPHIC] [TIFF OMITTED] T4446.249

[GRAPHIC] [TIFF OMITTED] T4446.250

[GRAPHIC] [TIFF OMITTED] T4446.251

[GRAPHIC] [TIFF OMITTED] T4446.252

[GRAPHIC] [TIFF OMITTED] T4446.253

[GRAPHIC] [TIFF OMITTED] T4446.254

[GRAPHIC] [TIFF OMITTED] T4446.255

[GRAPHIC] [TIFF OMITTED] T4446.256

[GRAPHIC] [TIFF OMITTED] T4446.257

[GRAPHIC] [TIFF OMITTED] T4446.258

[GRAPHIC] [TIFF OMITTED] T4446.259

[GRAPHIC] [TIFF OMITTED] T4446.260

[GRAPHIC] [TIFF OMITTED] T4446.261

[GRAPHIC] [TIFF OMITTED] T4446.262

[GRAPHIC] [TIFF OMITTED] T4446.263

[GRAPHIC] [TIFF OMITTED] T4446.264

[GRAPHIC] [TIFF OMITTED] T4446.265

[GRAPHIC] [TIFF OMITTED] T4446.266

[GRAPHIC] [TIFF OMITTED] T4446.267

[GRAPHIC] [TIFF OMITTED] T4446.268

[GRAPHIC] [TIFF OMITTED] T4446.269

[GRAPHIC] [TIFF OMITTED] T4446.270

[GRAPHIC] [TIFF OMITTED] T4446.271

[GRAPHIC] [TIFF OMITTED] T4446.272

[GRAPHIC] [TIFF OMITTED] T4446.273

[GRAPHIC] [TIFF OMITTED] T4446.274

[GRAPHIC] [TIFF OMITTED] T4446.275

[GRAPHIC] [TIFF OMITTED] T4446.276

[GRAPHIC] [TIFF OMITTED] T4446.277

[GRAPHIC] [TIFF OMITTED] T4446.278

[GRAPHIC] [TIFF OMITTED] T4446.279

[GRAPHIC] [TIFF OMITTED] T4446.280

[GRAPHIC] [TIFF OMITTED] T4446.281

[GRAPHIC] [TIFF OMITTED] T4446.282

[GRAPHIC] [TIFF OMITTED] T4446.283

[GRAPHIC] [TIFF OMITTED] T4446.284

[GRAPHIC] [TIFF OMITTED] T4446.285

[GRAPHIC] [TIFF OMITTED] T4446.286

[GRAPHIC] [TIFF OMITTED] T4446.287

[GRAPHIC] [TIFF OMITTED] T4446.288

[GRAPHIC] [TIFF OMITTED] T4446.289

[GRAPHIC] [TIFF OMITTED] T4446.290

[GRAPHIC] [TIFF OMITTED] T4446.291

[GRAPHIC] [TIFF OMITTED] T4446.292

[GRAPHIC] [TIFF OMITTED] T4446.293

[GRAPHIC] [TIFF OMITTED] T4446.294

[GRAPHIC] [TIFF OMITTED] T4446.295

[GRAPHIC] [TIFF OMITTED] T4446.296

[GRAPHIC] [TIFF OMITTED] T4446.297

[GRAPHIC] [TIFF OMITTED] T4446.298

[GRAPHIC] [TIFF OMITTED] T4446.299

[GRAPHIC] [TIFF OMITTED] T4446.300

[GRAPHIC] [TIFF OMITTED] T4446.301

[GRAPHIC] [TIFF OMITTED] T4446.302

[GRAPHIC] [TIFF OMITTED] T4446.303

[GRAPHIC] [TIFF OMITTED] T4446.304

[GRAPHIC] [TIFF OMITTED] T4446.305

[GRAPHIC] [TIFF OMITTED] T4446.306

[GRAPHIC] [TIFF OMITTED] T4446.307

[GRAPHIC] [TIFF OMITTED] T4446.308

[GRAPHIC] [TIFF OMITTED] T4446.309

[GRAPHIC] [TIFF OMITTED] T4446.310

[GRAPHIC] [TIFF OMITTED] T4446.311

[GRAPHIC] [TIFF OMITTED] T4446.312

[GRAPHIC] [TIFF OMITTED] T4446.313

[GRAPHIC] [TIFF OMITTED] T4446.314

[GRAPHIC] [TIFF OMITTED] T4446.315

[GRAPHIC] [TIFF OMITTED] T4446.316

                                 <all>
</pre></body></html>
